                     DLP.\R 1\lF\"T <>I HL\t.TII .\\"D HL .\L\\" SI :Rqu:s


                OFFICE OF INSPECTOR GENERAL
                                     \\.\"1 1!\(; I { 1\, IH   :!ll'.! lll



                                          JUN 1 3 2014

TO: 	         Edwin L. Walker
              Deputy Assistant Secretary for the Administration on Aging
              Administration for Community Living

                    /S/
FROM:          Brian P. Ritchie
               Acting Deputy Inspector General
                for Evaluation and Inspections


SUBJECT: 	 Memorandum Report : Performance Data for the Senior Medicare Patrol
           Projects: June 2014 Performance Report, OEI-02-14-00140


This memorandum report presents performance data for the Senior Medicare Patrol (SMP)
projects. The Office oflnspector General (OIG) has collected these data since 1997. In
July 2010, the Administration on Aging (AoA) , which is now part ofthe Administration for
Community Living (ACL), requested that OIG continue to collect and report performance
data for the projects to support its efforts to evaluate and improve their performance. OIG
currently reports this perfonnance data on an annual basis .

SUMMARY

The SMP projects receive grants from ACL to recruit and train retired professionals and other
senior citizens to recognize and report instances or patterns ofhealth care fraud. In 2013, the
54 projects had 5,406 active volunteers, a 5-percent increase from 2012. These volunteers
conducted 148,235 one-on-one counseling sessions, a 31-percent increase from 2012. They also
conducted 14,924 group education sessions in 2013 , compared to 14,748 in 2012.

In 2013 , expected Medicare and Medicaid recoveries that were attributable to the projects were
$9.1 million, a 50-percent increase from 2012. However, total savings to beneficiaries and
others decreased from $133,971 in 2012 to $41 ,718 in 2013. Finally, cost avoidance on behalf of
Medicare, Medicaid , beneficiaries, and others increased by 26 percent, from $113,692 in 2012 to
$143 ,282 in 2013.

We continue to emphasize that it is not always possible to track referrals to Medicare contractors
or law enforcement from beneficiaries who have learned to detect fraud , waste, and abuse from
the projects. Therefore, the projects may not be receiving full credit for savings attributable to
their work. In addition , the projects are unable to track the substantial savings derived from a
sentinel effect whereby fraud and errors are reduced by Medicare beneficiaries' scrutiny of their
bills.
Page 2 – Edwin L. Walker

BACKGROUND

There is one SMP project in each of the 50 States and in the District of Columbia, Puerto Rico,
Guam, and the Virgin Islands. In 2013, funding for the projects totaled $19.6 million—
$8.9 million from ACL, and $10.7 million in Health Care Fraud and Abuse Control Program
(HCFAC) funding. Of the $10.7 million in HCFAC funding, $3.4 million was provided to
support infrastructure, technical assistance, and other SMP project activities, and $7.3 million
was designated for expanding the projects’ capacity to detect and prevent fraud.

Performance Measures
In 2007, AoA revised some of the performance measures to more accurately reflect the work of
the SMP projects. AoA developed the following performance measures, among others: number
of active volunteers, number of simple inquiries, and number of complex issues. Active
volunteers are individuals who are trained to assist with teaching beneficiaries how to detect
fraud, waste, and abuse in Medicare and other health care programs. Simple inquiries are
beneficiary inquiries that are quickly resolved with very little research or review. Complex
issues involve collecting more detailed information related to an issue or a complaint that may
warrant further action by an investigative agency, such as the reporting of potential fraud or
abuse by a provider.

Also in 2007, the projects were required to begin measuring “cost avoidance”—in this case, the
health care expenditures for which Medicare, Medicaid, a beneficiary, or another entity (e.g., a
secondary health insurer or a pharmacy) was relieved of responsibility for payment as a result of
the projects. For example, if a beneficiary discovers charges for services that he or she did not
receive and a project, on behalf of the beneficiary, contacts the provider and receives a corrected
billing statement, the project may report this as cost avoidance.

In 2012, the performance measures for both Medicare and Medicaid recoveries attributable to the
projects were expanded to account for expected recoveries in addition to actual recoveries. This
is consistent with how OIG reports its recoveries.1

Tracking Systems
ACL uses a Web-based system named the Seniors Medicare Assistance and Reporting Tool for
Fraud and Complaint Tracking System (SMART FACTS). The SMP projects are required to use
SMART FACTS to track and report activities and complaints and to refer cases directly to an
investigative agency.



1
 As required by the Inspector General Act of 1978 (P.L. No. 95-452), as amended, OIG reports semiannually to the
Secretary of Health and Human Services and to Congress on the activities of the office. In the semiannual report,
OIG reports expected recoveries. See the most recent semiannual report at https://oig.hhs.gov/reports-and-
publications/semiannual/index.asp.

Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)
Page 3 – Edwin L. Walker

METHODOLOGY

We based this review on data reported by the SMP projects. In addition, we requested and
reviewed documentation from the projects for expected recoveries of funds for the Medicare and
Medicaid programs. We also requested and reviewed documentation for actual savings to
beneficiaries and others that were attributable to the projects, as well as for cost avoidance.
We did not review documentation for the other performance measures. The results for all of the
performance measures are presented in detail in the appendixes.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Results for 2013
In 2013, the 54 SMP projects had a total of 5,406 active volunteers. These volunteers conducted
148,235 one-on-one counseling sessions and 14,924 group education sessions. In total,
501,405 beneficiaries attended these group education sessions. The projects also reported
conducting 181,143 media airings, which could be any distribution of media (e.g., print, radio,
television, or electronic), to educate about fraud and the services of the project. Additionally, the
projects reported conducting 10,545 community outreach education events. As a result of these
training sessions and events, the projects received 114,625 simple inquiries. They also received
1,674 inquiries involving complex issues; 698 inquiries were referred for further action.
Expected Medicare and Medicaid recoveries that were attributable to the projects were
$9.1 million. Savings to beneficiaries and others totaled $41,718, and cost avoidance on behalf
of Medicare, Medicaid, beneficiaries, and others was $143,282.

Results Since 1997
Since the program’s inception 17 years ago, 72 SMP projects have reported performance data.2
In total, these projects reported conducting 1.4 million one-on-one counseling sessions and
123,749 group education sessions. A total of 4.5 million beneficiaries attended these group
education sessions. The projects also reported conducting 2.3 million media airings and
183,808 community outreach education events. Total expected savings to Medicare and
Medicaid attributable to the projects were $114.5 million. Most of the savings resulted from one
project’s involvement in adjustments to Medicaid claims for individuals entitled to both
Medicaid and Medicare. 3 Total savings to beneficiaries and other payers were approximately


2
  Seventeen of these projects had closed as of December 2008, and one project is now focused solely on providing
support to the other projects.

3
  The project reported these savings between 2001 and 2003. Prior to 2007, OIG reviewed documentation on

savings to Medicare only and included self-reported data on savings to Medicaid, beneficiaries, and other entities. 


Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)
Page 4 – Edwin L. Walker

$6.9 million. Finally, total cost avoidance on behalf of Medicare, Medicaid, beneficiaries, and
others was $8.8 million.

Comparison With Results for 2012
The projects experienced a 5-percent increase in active volunteers from 2012 to 2013. As a
result, they were able to conduct more one-on-one counseling and group education sessions.
Specifically, the projects conducted 148,235 one-on-one counseling sessions in 2013, compared
to 113,457 in 2012. They also conducted 14,924 group education sessions in 2013, compared to
14,748 in 2012. The number of beneficiaries who attended group education sessions increased
from 449,509 in 2012 to 501,405 in 2013. At the same time, the projects reported conducting
somewhat fewer media airings in 2013—a total of 181,143, compared to 188,199 in 2012.

In 2013, the projects reported $9.1 million in expected Medicare and Medicaid recoveries, a
50-percent increase from 2012. However, total savings to beneficiaries and others decreased
from $133,971 in 2012 to $41,718 in 2013.4 Finally, cost avoidance on behalf of Medicare,
Medicaid, beneficiaries, and others increased by 26 percent, from $113,692 in 2012 to
$143,282 in 2013.

CONCLUSION

The SMP projects receive grants from ACL to recruit and train retired professionals and other
senior citizens to recognize and report instances or patterns of health care fraud. In 2013, the
54 projects had 5,406 active volunteers, a 5-percent increase from 2012. These volunteers
conducted 148,235 one-on-one counseling sessions, a 31-percent increase from 2012. They also
conducted 14,924 group education sessions in 2013, compared to 14,748 in 2012.

In 2013, expected Medicare and Medicaid recoveries that were attributable to the projects were
$9.1 million, a 50-percent increase from 2012. However, total savings to beneficiaries and
others decreased from $133,971 in 2012 to $41,718 in 2013. Finally, cost avoidance on behalf of
Medicare, Medicaid, beneficiaries, and others increased by 26 percent, from $113,692 in 2012 to
$143,282 in 2013.

We continue to emphasize that it is not always possible to track referrals to Medicare contractors
or law enforcement from beneficiaries who have learned to detect fraud, waste, and abuse from
the projects. Therefore, the projects may not be receiving full credit for savings attributable to
their work. In addition, the projects are unable to track the substantial savings derived from a
sentinel effect whereby fraud and errors are reduced by Medicare beneficiaries’ scrutiny of their
bills.



4
  Most of the 2012 savings to beneficiaries and others resulted from one project that identified $91,250 in savings to
one beneficiary.

Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)
Page 5 – Edwin L. Walker

As agreed, we will continue to monitor the projects and will provide ACL with annual summary
reports of performance data. This memorandum report is being issued directly in final form
because it contains no recommendations. If you have comments or questions about this
memorandum report, please provide them within 60 days. Please refer to report number
OEI-02-14-00140 in all correspondence.

cc:
Kathleen Cantwell
Director of the Office of Strategic Operations and Regulatory Affairs
Centers for Medicare & Medicaid Services




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)
                                    Results for Performance Measures 

                                  for the Senior Medicare Patrol Projects 


  List of Appendixes

  Appendix A: Summary of Overall Performance of Projects Since 1997………………………….………7 


  Appendix B: Summary of Overall Performance of Projects in 2013…………………….…….…….........9 


  Appendix C: Results for 2013, by Performance Measure……………...…………………...………...…...11


  Appendix D: Results for 2013, by Project……………………………………….………….….….......….33 


  Appendix E: Definitions of Performance Measures…………………………………..……...……….…..88





Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)   6
APPENDIX A

                             Summary of Overall Performance of Projects Since 1997
The following table provides a summary of the overall performance of all 72 Senior Medicare Patrol projects that have operated since
1997.

Performance measures labeled with an asterisk (*) are reported as of 2007.

For performance measure #15—“Number of complex issues pending further action”—the same issue can continue through numerous
reporting periods for a project. Therefore, the data cannot be added to the number from prior years.

Performance measures #17A and #17B, labeled with two asterisks (**), were changed to include actual and expected recoveries as of
2012. Prior to 2012, the measures only included actual recoveries.




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)              7
                             Summary of Overall Performance of Projects Since 1997
                                                                                                             Total Since 1997
                                                          PERFORMANCE MEASURES
          1               Total number of active volunteers*                                                          41,179
          2               Total number of volunteer training hours*                                                  466,203
          3               Total number of volunteer work hours*                                                      987,824
          4               Number of media airings                                                                  2,283,251
          5               Number of community outreach education events conducted                                    183,808
          6               Estimated number of people reached by community outreach education events               29,031,244
          7               Number of group education sessions for beneficiaries                                       123,749
          8               Number of beneficiaries who attended group education sessions                            4,480,351
          9               Number of one-on-one counseling sessions held with or on behalf of a beneficiary         1,440,882
          10              Total number of simple inquiries received*                                                 535,854
          11              Total number of simple inquiries resolved*                                                 522,059
          12              Number of inquiries involving complex issues received*                                      33,029
          13A             Number of inquiries involving complex issues referred for further action*                     8,758
          13B             Total dollar amount referred for further action*                                       $42,981,376
          14              Number of complex issues resolved*                                                          16,870
          15              Number of complex issues pending further action*                                                 NA
          16              Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others*               $8,839,188
                                                                                      **
          17A             Expected Medicare recoveries attributable to the projects                              $19,644,423
                                                                                      **
          17B             Expected Medicaid recoveries attributable to the projects                              $94,811,793
          17C             Actual savings to beneficiaries attributable to the projects                            $3,417,367
          17D             Other savings attributable to the projects (e.g., Supplemental Insurance)               $3,471,201
          17A –17D        Total savings attributable to the projects                                            $121,344,784




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)               8
APPENDIX B

                               Summary of Overall Performance of Projects in 2013 


The following table provides data for the 54 Senior Medicare Patrol projects that operated in 2013.




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)   9
                        Summary of Overall Performance of Projects in 2013
                                                                                                           Total for 2013
                                              PERFORMANCE MEASURES
1               Total number of active volunteers                                                                  5,406
2               Total number of volunteer training hours                                                          43,303
3               Total number of volunteer work hours                                                             105,235
4               Number of media airings                                                                          181,143
5               Number of community outreach education events conducted                                           10,545
6               Estimated number of people reached by community outreach education events                      1,048,039
7               Number of group education sessions for beneficiaries                                              14,924
8               Number of beneficiaries who attended group education sessions                                    501,405
9               Number of one-on-one counseling sessions held with or on behalf of a beneficiary                 148,235
10              Total number of simple inquiries received                                                        114,625
11              Total number of simple inquiries resolved                                                        114,387
12              Number of inquiries involving complex issues received                                              1,674
13A             Number of inquiries involving complex issues referred for further action                             698
13B             Total dollar amount referred for further action                                                 $976,409
14              Number of complex issues resolved                                                                  1,526
15              Number of complex issues pending further action                                                    2,606
16              Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $143,282
17A             Expected Medicare recoveries attributable to the projects                                     $9,047,393
17B             Expected Medicaid recoveries attributable to the Projects                                        $52,873
17C             Actual savings to beneficiaries attributable to the projects                                     $41,150
17D             Other savings attributable to the projects (e.g., Supplemental Insurance)                           $568
17A –17D        Total savings attributable to the projects                                                    $9,141,984




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)               10
APPENDIX C

                                       Results for 2013, by Performance Measure
The following tables provide the results by performance measure for each of the 54 Senior Medicare Patrol projects operating 

in 2013. 


The total amounts for Performance Measures 2, 3, 16, and 17C, labeled with an asterisk (*), do not match the sum of each of these
performance measures in Appendix B because of rounding.




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)              11
                       PERFORMANCE MEASURE 1: Total Number of Active Volunteers
                                           Total for 2013                                                  Total for 2013
Alabama                                                70                   Montana                                    43
Alaska                                                 13                   Nebraska                                   79
Arizona                                               188                   Nevada                                     86
Arkansas                                               70                   New Hampshire                               9
California                                            694                   New Jersey                                 43
Colorado                                               24                   New Mexico                                 75
Connecticut                                           120                   New York                                  410
Delaware                                               29                   North Carolina                            515
District of Columbia                                   57                   North Dakota                               34
Florida                                               122                   Ohio                                       58
Georgia                                               310                   Oklahoma                                    3
Guam                                                   10                   Oregon                                    217
Hawaii                                                 78                   Pennsylvania                               56
Idaho                                                  96                   Puerto Rico                                23
Illinois                                               51                   Rhode Island                               47
Indiana                                                86                   South Carolina                             13
Iowa                                                   45                   South Dakota                               27
Kansas                                                 42                   Tennessee                                 107
Kentucky                                              160                   Texas                                      76
Louisiana                                              40                   Utah                                      149
Maine                                                  85                   Vermont                                    49
Maryland                                              124                   Virginia                                   35
Massachusetts                                          75                   Virgin Islands                             27
Michigan                                              313                   Washington                                 16
Minnesota                                             108                   West Virginia                              58
Mississippi                                            14                   Wisconsin                                  89
Missouri                                               28                   Wyoming                                    10




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                12
                   PERFORMANCE MEASURE 2: Total Number of Volunteer Training Hours*
                                           Total for 2013                                                  Total for 2013
Alabama                                               295                   Montana                                   141
Alaska                                                207                   Nebraska                                  339
Arizona                                             2,222                   Nevada                                  1,641
Arkansas                                              223                   New Hampshire                              48
California                                          2,985                   New Jersey                                702
Colorado                                                0                   New Mexico                                716
Connecticut                                           706                   New York                                1,896
Delaware                                              257                   North Carolina                          6,874
District of Columbia                                  473                   North Dakota                               67
Florida                                               777                   Ohio                                      262
Georgia                                               776                   Oklahoma                                   50
Guam                                                   40                   Oregon                                    656
Hawaii                                              2,039                   Pennsylvania                              146
Idaho                                                 979                   Puerto Rico                             1,328
Illinois                                              219                   Rhode Island                              269
Indiana                                                99                   South Carolina                             19
Iowa                                                  525                   South Dakota                               52
Kansas                                                152                   Tennessee                               1,299
Kentucky                                              558                   Texas                                     307
Louisiana                                             262                   Utah                                      952
Maine                                                 665                   Vermont                                   536
Maryland                                            1,472                   Virginia                                  187
Massachusetts                                         661                   Virgin Islands                            230
Michigan                                            5,877                   Washington                                118
Minnesota                                           1,350                   West Virginia                               9
Mississippi                                            70                   Wisconsin                                 315
Missouri                                              242                   Wyoming                                    19




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                13
                       PERFORMANCE MEASURE 3: Total Number of Volunteer Work Hours*
                                           Total for 2013                                                  Total for 2013
Alabama                                               239                   Montana                                   631
Alaska                                                439                   Nebraska                                1,307
Arizona                                             3,993                   Nevada                                  1,527
Arkansas                                              949                   New Hampshire                             189
California                                         21,287                   New Jersey                                773
Colorado                                              262                   New Mexico                              3,660
Connecticut                                           434                   New York                                2,222
Delaware                                              719                   North Carolina                          2,557
District of Columbia                                1,439                   North Dakota                              365
Florida                                             2,154                   Ohio                                      851
Georgia                                             6,453                   Oklahoma                                  141
Guam                                                  879                   Oregon                                  3,043
Hawaii                                              1,070                   Pennsylvania                            1,241
Idaho                                               1,874                   Puerto Rico                             5,639
Illinois                                              773                   Rhode Island                            1,127
Indiana                                               980                   South Carolina                            354
Iowa                                                  818                   South Dakota                              282
Kansas                                                 47                   Tennessee                               3,170
Kentucky                                            2,342                   Texas                                     518
Louisiana                                           1,139                   Utah                                    4,569
Maine                                               5,604                   Vermont                                 1,577
Maryland                                            5,806                   Virginia                                  295
Massachusetts                                       2,531                   Virgin Islands                            251
Michigan                                            3,535                   Washington                                946
Minnesota                                             555                   West Virginia                             671
Mississippi                                           103                   Wisconsin                                 565
Missouri                                               97                   Wyoming                                   248




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                14
                             PERFORMANCE MEASURE 4: Number of Media Airings
                                           Total for 2013                                                  Total for 2013
Alabama                                               127                   Montana                                 4,723
Alaska                                                 15                   Nebraska                               10,358
Arizona                                               636                   Nevada                                  1,776
Arkansas                                            2,182                   New Hampshire                              13
California                                            538                   New Jersey                                 84
Colorado                                               78                   New Mexico                             19,335
Connecticut                                           188                   New York                                1,998
Delaware                                               29                   North Carolina                         28,433
District of Columbia                                2,613                   North Dakota                              130
Florida                                               463                   Ohio                                       84
Georgia                                             2,201                   Oklahoma                                2,509
Guam                                                  592                   Oregon                                  5,666
Hawaii                                              4,219                   Pennsylvania                               22
Idaho                                                 638                   Puerto Rico                                0
Illinois                                              179                   Rhode Island                             196
Indiana                                             3,494                   South Carolina                        36,207
Iowa                                                  408                   South Dakota                               4
Kansas                                              1,067                   Tennessee                              5,238
Kentucky                                            2,004                   Texas                                  1,230
Louisiana                                           4,383                   Utah                                     139
Maine                                                 489                   Vermont                                  110
Maryland                                            2,049                   Virginia                              19,979
Massachusetts                                         637                   Virgin Islands                            75
Michigan                                              281                   Washington                               665
Minnesota                                             151                   West Virginia                            360
Mississippi                                             7                   Wisconsin                                547
Missouri                                               58                   Wyoming                               11,536




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                15
          PERFORMANCE MEASURE 5: Number of Community Outreach Education Events Conducted
                                              Total for 2013                                               Total for 2013
Alabama                                                  201                   Montana                                 14
Alaska                                                    16                   Nebraska                                92
Arizona                                                  100                   Nevada                                 131
Arkansas                                                  41                   New Hampshire                           87
California                                               465                   New Jersey                              55
Colorado                                                 121                   New Mexico                             505
Connecticut                                               75                   New York                                49
Delaware                                                 129                   North Carolina                         442
District of Columbia                                      69                   North Dakota                            84
Florida                                                  338                   Ohio                                   153
Georgia                                                1,085                   Oklahoma                               144
Guam                                                      19                   Oregon                                  90
Hawaii                                                    79                   Pennsylvania                            78
Idaho                                                     70                   Puerto Rico                          1,392
Illinois                                                 176                   Rhode Island                           203
Indiana                                                  236                   South Carolina                         209
Iowa                                                      45                   South Dakota                             2
Kansas                                                   138                   Tennessee                              278
Kentucky                                                 154                   Texas                                  161
Louisiana                                                133                   Utah                                   242
Maine                                                    136                   Vermont                                 57
Maryland                                                 459                   Virginia                               207
Massachusetts                                            102                   Virgin Islands                          23
Michigan                                                 221                   Washington                             711
Minnesota                                                 75                   West Virginia                           31
Mississippi                                              193                   Wisconsin                               61
Missouri                                                 144                   Wyoming                                 24




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)             16
   PERFORMANCE MEASURE 6: Estimated Number of People Reached by Community Outreach Education
                                  Events
                                              Total for 2013                                               Total for 2013
Alabama                                               26,514                   Montana                              1,217
Alaska                                                   461                   Nebraska                             7,871
Arizona                                               21,284                   Nevada                              10,668
Arkansas                                               3,057                   New Hampshire                        5,912
California                                            74,982                   New Jersey                           5,698
Colorado                                              11,006                   New Mexico                          25,335
Connecticut                                            5,602                   New York                             3,342
Delaware                                              16,597                   North Carolina                     142,925
District of Columbia                                   6,361                   North Dakota                         5,364
Florida                                               43,880                   Ohio                                16,108
Georgia                                               56,308                   Oklahoma                            11,110
Guam                                                   1,669                   Oregon                               6,724
Hawaii                                                 8,635                   Pennsylvania                         8,512
Idaho                                                  5,976                   Puerto Rico                         42,884
Illinois                                              16,127                   Rhode Island                         6,061
Indiana                                               49,304                   South Carolina                      19,925
Iowa                                                   6,945                   South Dakota                           125
Kansas                                                12,810                   Tennessee                           52,558
Kentucky                                              12,210                   Texas                               36,694
Louisiana                                             16,464                   Utah                                18,802
Maine                                                  4,246                   Vermont                              1,113
Maryland                                              24,682                   Virginia                            16,057
Massachusetts                                         11,125                   Virgin Islands                       1,803
Michigan                                              42,244                   Washington                          45,059
Minnesota                                             44,067                   West Virginia                        7,520
Mississippi                                            9,709                   Wisconsin                            4,541
Missouri                                              10,594                   Wyoming                              1,252




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)             17
             PERFORMANCE MEASURE 7: Number of Group Education Sessions for Beneficiaries
                                           Total for 2013                                                  Total for 2013
Alabama                                               465                   Montana                                   474
Alaska                                                 24                   Nebraska                                  234
Arizona                                               465                   Nevada                                    171
Arkansas                                               86                   New Hampshire                             100
California                                          1,737                   New Jersey                                271
Colorado                                              318                   New Mexico                                115
Connecticut                                           110                   New York                                  98
Delaware                                               65                   North Carolina                           752
District of Columbia                                  145                   North Dakota                             124
Florida                                               315                   Ohio                                     145
Georgia                                             1,434                   Oklahoma                                 184
Guam                                                  158                   Oregon                                   176
Hawaii                                                 51                   Pennsylvania                             282
Idaho                                                 224                   Puerto Rico                                 0
Illinois                                              354                   Rhode Island                             154
Indiana                                               311                   South Carolina                           178
Iowa                                                  761                   South Dakota                               18
Kansas                                                116                   Tennessee                                347
Kentucky                                              264                   Texas                                    284
Louisiana                                             130                   Utah                                     342
Maine                                                 108                   Vermont                                  129
Maryland                                              384                   Virginia                                 238
Massachusetts                                         106                   Virgin Islands                            22
Michigan                                              698                   Washington                               430
Minnesota                                             430                   West Virginia                              30
Mississippi                                            43                   Wisconsin                                148
Missouri                                              153                   Wyoming                                    23




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                18
      PERFORMANCE MEASURE 8: Number of Beneficiaries Who Attended Group Education Sessions
                                           Total for 2013                                                  Total for 2013
Alabama                                            20,109                   Montana                                13,707
Alaska                                                942                   Nebraska                                5,996
Arizona                                            13,922                   Nevada                                  3,740
Arkansas                                            2,267                   New Hampshire                           1,905
California                                         63,289                   New Jersey                              9,212
Colorado                                           11,047                   New Mexico                              3,325
Connecticut                                         2,581                   New York                               12,100
Delaware                                            2,119                   North Carolina                         25,962
District of Columbia                                2,710                   North Dakota                            1,944
Florida                                            14,494                   Ohio                                    2,570
Georgia                                            47,981                   Oklahoma                                5,995
Guam                                                3,211                   Oregon                                  3,993
Hawaii                                              1,582                   Pennsylvania                            5,890
Idaho                                               6,130                   Puerto Rico                                 0
Illinois                                            9,568                   Rhode Island                            4,868
Indiana                                             9,030                   South Carolina                          5,313
Iowa                                               19,337                   South Dakota                              560
Kansas                                              4,743                   Tennessee                               8,119
Kentucky                                            7,387                   Texas                                   9,056
Louisiana                                           3,813                   Utah                                   10,585
Maine                                               1,835                   Vermont                                 2,533
Maryland                                            9,602                   Virginia                                6,084
Massachusetts                                       3,039                   Virgin Islands                            334
Michigan                                           36,090                   Washington                             22,242
Minnesota                                           9,395                   West Virginia                          20,815
Mississippi                                         1,283                   Wisconsin                               2,825
Missouri                                            3,490                   Wyoming                                   736




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                19
PERFORMANCE MEASURE 9: Number of One-on-One Counseling Sessions Held
             With or on Behalf of a Beneficiary
                                                 Total for 2013                                            Total for 2013
Alabama                                                   2,902             Montana                                   687
Alaska                                                        6             Nebraska                                3,881
Arizona                                                     886             Nevada                                    853
Arkansas                                                    227             New Hampshire                           2,165
California                                               19,391             New Jersey                                179
Colorado                                                     50             New Mexico                              6,055
Connecticut                                                  10             New York                                2,200
Delaware                                                    142             North Carolina                         10,893
District of Columbia                                        53              North Dakota                              143
Florida                                                     39              Ohio                                        9
Georgia                                                  5,859              Oklahoma                                  348
Guam                                                     1,500              Oregon                                  2,780
Hawaii                                                      99              Pennsylvania                              287
Idaho                                                    2,293              Puerto Rico                               800
Illinois                                                 7,923              Rhode Island                            3,572
Indiana                                                    881              South Carolina                          7,682
Iowa                                                       393              South Dakota                              354
Kansas                                                      12              Tennessee                               4,067
Kentucky                                                 1,622              Texas                                     501
Louisiana                                                  282              Utah                                    8,984
Maine                                                   11,099              Vermont                                     0
Maryland                                                17,536              Virginia                                  422
Massachusetts                                            3,336              Virgin Islands                             68
Michigan                                                 2,318              Washington                              4,453
Minnesota                                                   64              West Virginia                           1,370
Mississippi                                              4,074              Wisconsin                                 146
Missouri                                                     0              Wyoming                                 2,339




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                20
                       PERFORMANCE MEASURE 10: Total Number of Simple Inquiries Received
                                           Total for 2013                                                  Total for 2013
Alabama                                               424                   Montana                                   339
Alaska                                                 20                   Nebraska                                  457
Arizona                                               505                   Nevada                                    720
Arkansas                                              386                   New Hampshire                             435
California                                            498                   New Jersey                              1,529
Colorado                                              197                   New Mexico                                  2
Connecticut                                           360                   New York                                2,698
Delaware                                              704                   North Carolina                          6,344
District of Columbia                                  229                   North Dakota                               95
Florida                                               264                   Ohio                                      112
Georgia                                             3,612                   Oklahoma                                    0
Guam                                                  708                   Oregon                                  2,317
Hawaii                                                431                   Pennsylvania                            1,072
Idaho                                                 226                   Puerto Rico                                 0
Illinois                                            9,382                   Rhode Island                           10,850
Indiana                                               162                   South Carolina                          8,057
Iowa                                                  390                   South Dakota                               34
Kansas                                                 22                   Tennessee                                  67
Kentucky                                            1,456                   Texas                                     350
Louisiana                                             159                   Utah                                    3,564
Maine                                                 822                   Vermont                                    31
Maryland                                            8,483                   Virginia                                  746
Massachusetts                                       1,420                   Virgin Islands                             14
Michigan                                              189                   Washington                              8,247
Minnesota                                           2,931                   West Virginia                          20,225
Mississippi                                         2,094                   Wisconsin                               1,202
Missouri                                            8,545                   Wyoming                                   499




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                21
                       PERFORMANCE MEASURE 11: Total Number of Simple Inquiries Resolved
                                               Total for 2013                                              Total for 2013
Alabama                                                   424               Montana                                   313
Alaska                                                     20               Nebraska                                  457
Arizona                                                   505               Nevada                                    720
Arkansas                                                  386               New Hampshire                             435
California                                                498               New Jersey                              1,527
Colorado                                                  197               New Mexico                                  2
Connecticut                                               359               New York                                2,664
Delaware                                                  703               North Carolina                          6,344
District of Columbia                                      229               North Dakota                              95
Florida                                                   264               Ohio                                     112
Georgia                                                 3,491               Oklahoma                                    0
Guam                                                      708               Oregon                                 2,317
Hawaii                                                    431               Pennsylvania                           1,071
Idaho                                                     226               Puerto Rico                                 0
Illinois                                                9,382               Rhode Island                          10,850
Indiana                                                   162               South Carolina                         8,045
Iowa                                                      390               South Dakota                               34
Kansas                                                     22               Tennessee                                 67
Kentucky                                                1,456               Texas                                    345
Louisiana                                                 159               Utah                                   3,564
Maine                                                     822               Vermont                                    31
Maryland                                                8,453               Virginia                                 746
Massachusetts                                           1,420               Virgin Islands                            14
Michigan                                                  189               Washington                             8,245
Minnesota                                               2,931               West Virginia                         20,225
Mississippi                                             2,094               Wisconsin                              1,200
Missouri                                                8,544               Wyoming                                  499




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                22
            PERFORMANCE MEASURE 12: Number of Inquiries Involving Complex Issues Received
                                           Total for 2013                                                  Total for 2013
Alabama                                                16                   Montana                                    32
Alaska                                                 11                   Nebraska                                   20
Arizona                                                 5                   Nevada                                     13
Arkansas                                               33                   New Hampshire                              10
California                                            301                   New Jersey                                 71
Colorado                                               49                   New Mexico                                 42
Connecticut                                            30                   New York                                    0
Delaware                                               35                   North Carolina                             11
District of Columbia                                  10                    North Dakota                                1
Florida                                               28                    Ohio                                       22
Georgia                                               25                    Oklahoma                                    4
Guam                                                   1                    Oregon                                     32
Hawaii                                                19                    Pennsylvania                               34
Idaho                                                  8                    Puerto Rico                                 0
Illinois                                              43                    Rhode Island                               19
Indiana                                               33                    South Carolina                             10
Iowa                                                  12                    South Dakota                                6
Kansas                                                 1                    Tennessee                                  58
Kentucky                                              13                    Texas                                      51
Louisiana                                             89                    Utah                                       44
Maine                                                 33                    Vermont                                     7
Maryland                                              24                    Virginia                                   39
Massachusetts                                         12                    Virgin Islands                              0
Michigan                                              42                    Washington                                209
Minnesota                                             17                    West Virginia                              18
Mississippi                                            6                    Wisconsin                                  11
Missouri                                               0                    Wyoming                                    14




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                23
     PERFORMANCE MEASURE 13A: Number of Inquiries Involving Complex Issues Referred for Further
                                  Action
                                               Total for 2013                                              Total for 2013
Alabama                                                     3               Montana                                     5
Alaska                                                      6               Nebraska                                    7
Arizona                                                     2               Nevada                                     13
Arkansas                                                   19               New Hampshire                               7
California                                                173               New Jersey                                 11
Colorado                                                   20               New Mexico                                  2
Connecticut                                                 9               New York                                    0
Delaware                                                   14               North Carolina                              2
District of Columbia                                        4               North Dakota                                1
Florida                                                    28               Ohio                                        8
Georgia                                                    24               Oklahoma                                    0
Guam                                                        0               Oregon                                     12
Hawaii                                                      7               Pennsylvania                                9
Idaho                                                       7               Puerto Rico                                 0
Illinois                                                   27               Rhode Island                               11
Indiana                                                    10               South Carolina                              5
Iowa                                                       16               South Dakota                                0
Kansas                                                      0               Tennessee                                  27
Kentucky                                                    5               Texas                                      39
Louisiana                                                  22               Utah                                       42
Maine                                                       4               Vermont                                     5
Maryland                                                    2               Virginia                                   47
Massachusetts                                               4               Virgin Islands                              0
Michigan                                                   15               Washington                                  2
Minnesota                                                  10               West Virginia                               0
Mississippi                                                 3               Wisconsin                                   6
Missouri                                                    0               Wyoming                                     3




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                24
               PERFORMANCE MEASURE 13B: Total Dollar Amount Referred for Further Action
                                               Total for 2013                                              Total for 2013
Alabama                                                    $0               Montana                               $24,076
Alaska                                                     $0               Nebraska                              $34,636
Arizona                                                    $0               Nevada                                   $221
Arkansas                                             $52,537                New Hampshire                          $2,419
California                                           $55,432                New Jersey                          $153,931
Colorado                                            $182,222                New Mexico                            $24,277
Connecticut                                            $1,405               New York                                   $0
Delaware                                             $21,410                North Carolina                         $4,447
District of Columbia                                   $4,197               North Dakota                             $230
Florida                                              $26,964                Ohio                                   $6,033
Georgia                                                $1,388               Oklahoma                                  $96
Guam                                                   $2,796               Oregon                                $31,497
Hawaii                                                 $7,214               Pennsylvania                             $461
Idaho                                                  $9,471               Puerto Rico                                $0
Illinois                                             $10,010                Rhode Island                           $6,840
Indiana                                                $3,267               South Carolina                         $2,060
Iowa                                                   $2,143               South Dakota                             $768
Kansas                                                     $0               Tennessee                             $17,869
Kentucky                                             $13,532                Texas                                 $30,836
Louisiana                                            $35,306                Utah                                $112,217
Maine                                                  $1,610               Vermont                                $1,429
Maryland                                                $765                Virginia                                 $801
Massachusetts                                        $19,124                Virgin Islands                             $0
Michigan                                             $12,603                Washington                             $8,000
Minnesota                                              $4,691               West Virginia                            $967
Mississippi                                               $14               Wisconsin                              $4,650
Missouri                                                   $0               Wyoming                               $39,547




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                25
                       PERFORMANCE MEASURE 14: Number of Complex Issues Resolved
                                               Total for 2013                                              Total for 2013
Alabama                                                    13               Montana                                    32
Alaska                                                     10               Nebraska                                   26
Arizona                                                     2               Nevada                                      6
Arkansas                                                   28               New Hampshire                               9
California                                                432               New Jersey                                 59
Colorado                                                   63               New Mexico                                 20
Connecticut                                                23               New York                                    0
Delaware                                                   30               North Carolina                             38
District of Columbia                                        4               North Dakota                                0
Florida                                                     4               Ohio                                       23
Georgia                                                     8               Oklahoma                                    6
Guam                                                        1               Oregon                                     25
Hawaii                                                      9               Pennsylvania                               36
Idaho                                                       9               Puerto Rico                                 0
Illinois                                                   36               Rhode Island                               14
Indiana                                                    19               South Carolina                              0
Iowa                                                       23               South Dakota                                7
Kansas                                                      1               Tennessee                                  28
Kentucky                                                   16               Texas                                      26
Louisiana                                                 102               Utah                                       44
Maine                                                      38               Vermont                                     4
Maryland                                                   19               Virginia                                   30
Massachusetts                                               4               Virgin Islands                              0
Michigan                                                   46               Washington                                117
Minnesota                                                   7               West Virginia                               0
Mississippi                                                 5               Wisconsin                                  12
Missouri                                                    0               Wyoming                                    12




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                26
               PERFORMANCE MEASURE 15: Number of Complex Issues Pending Further Action
                                               Total for 2013                                              Total for 2013
Alabama                                                    22               Montana                                    13
Alaska                                                      2               Nebraska                                    8
Arizona                                                    28               Nevada                                     24
Arkansas                                                   35               New Hampshire                              10
California                                                220               New Jersey                                 12
Colorado                                                   13               New Mexico                                 18
Connecticut                                                27               New York                                  120
Delaware                                                   59               North Carolina                             21
District of Columbia                                       15               North Dakota                                1
Florida                                                   254               Ohio                                       15
Georgia                                                    47               Oklahoma                                    7
Guam                                                        3               Oregon                                     14
Hawaii                                                     14               Pennsylvania                               37
Idaho                                                       4               Puerto Rico                                 2
Illinois                                                  110               Rhode Island                               15
Indiana                                                    87               South Carolina                             80
Iowa                                                       32               South Dakota                                0
Kansas                                                     66               Tennessee                                  85
Kentucky                                                    4               Texas                                     149
Louisiana                                                  23               Utah                                        5
Maine                                                      14               Vermont                                     5
Maryland                                                   28               Virginia                                   57
Massachusetts                                              39               Virgin Islands                              3
Michigan                                                   13               Washington                                415
Minnesota                                                  56               West Virginia                             159
Mississippi                                                33               Wisconsin                                  15
Missouri                                                   66               Wyoming                                     2




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                27
         PERFORMANCE MEASURE 16: Cost Avoidance on Behalf of Medicare, Medicaid, Beneficiaries, or
                                               Others*
                                               Total for 2013                                              Total for 2013
Alabama                                                    $0               Montana                                    $0
Alaska                                                     $0               Nebraska                                   $0
Arizona                                                    $0               Nevada                                     $0
Arkansas                                                  $54               New Hampshire                              $0
California                                            $49,903               New Jersey                               $867
Colorado                                              $26,831               New Mexico                            $19,012
Connecticut                                                $0               New York                                   $0
Delaware                                                 $298               North Carolina                             $0
District of Columbia                                       $0               North Dakota                               $0
Florida                                                    $0               Ohio                                       $0
Georgia                                                    $0               Oklahoma                                   $0
Guam                                                       $0               Oregon                                     $0
Hawaii                                                   $230               Pennsylvania                               $0
Idaho                                                      $0               Puerto Rico                                $0
Illinois                                                   $0               Rhode Island                           $2,491
Indiana                                                    $0               South Carolina                             $0
Iowa                                                     $339               South Dakota                               $0
Kansas                                                     $0               Tennessee                              $2,112
Kentucky                                               $1,947               Texas                                      $0
Louisiana                                                $731               Utah                                   $2,867
Maine                                                 $29,165               Vermont                                    $0
Maryland                                                   $0               Virginia                                   $0
Massachusetts                                          $6,268               Virgin Islands                             $0
Michigan                                                   $0               Washington                                 $0
Minnesota                                                  $0               West Virginia                              $0
Mississippi                                                $0               Wisconsin                                  $0
Missouri                                                   $0               Wyoming                                  $168




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                28
         PERFORMANCE MEASURE 17A: Expected Medicare Recoveries Attributable to the Projects
                                               Total for 2013                                              Total for 2013
Alabama                                                    $0               Montana                                    $0
Alaska                                                     $0               Nebraska                                  $77
Arizona                                                    $0               Nevada                                     $0
Arkansas                                               $3,180               New Hampshire                              $0
California                                        $8,992,214                New Jersey                            $17,612
Colorado                                                 $284               New Mexico                                 $0
Connecticut                                                $0               New York                                   $0
Delaware                                                   $0               North Carolina                             $0
District of Columbia                                       $0               North Dakota                               $0
Florida                                                    $0               Ohio                                       $0
Georgia                                                  $633               Oklahoma                                   $0
Guam                                                       $0               Oregon                                     $0
Hawaii                                                     $0               Pennsylvania                             $141
Idaho                                                  $3,202               Puerto Rico                                $0
Illinois                                               $2,315               Rhode Island                               $0
Indiana                                                    $0               South Carolina                             $0
Iowa                                                     $768               South Dakota                             $768
Kansas                                                     $0               Tennessee                              $8,448
Kentucky                                               $1,643               Texas                                    $261
Louisiana                                                $440               Utah                                  $15,075
Maine                                                      $0               Vermont                                    $0
Maryland                                                   $0               Virginia                                   $0
Massachusetts                                            $332               Virgin Islands                             $0
Michigan                                                   $0               Washington                                 $0
Minnesota                                                  $0               West Virginia                              $0
Mississippi                                                $0               Wisconsin                                  $0
Missouri                                                   $0               Wyoming                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                29
         PERFORMANCE MEASURE 17B: Expected Medicaid Recoveries Attributable to the Projects
                                               Total for 2013                                              Total for 2013
Alabama                                                    $0               Montana                                    $0
Alaska                                                     $0               Nebraska                                   $0
Arizona                                                    $0               Nevada                                     $0
Arkansas                                                   $0               New Hampshire                              $0
California                                                 $0               New Jersey                                 $0
Colorado                                                   $0               New Mexico                                 $0
Connecticut                                                $0               New York                                   $0
Delaware                                                   $0               North Carolina                             $0
District of Columbia                                       $0               North Dakota                               $0
Florida                                                    $0               Ohio                                  $52,873
Georgia                                                    $0               Oklahoma                                   $0
Guam                                                       $0               Oregon                                     $0
Hawaii                                                     $0               Pennsylvania                               $0
Idaho                                                      $0               Puerto Rico                                $0
Illinois                                                   $0               Rhode Island                               $0
Indiana                                                    $0               South Carolina                             $0
Iowa                                                       $0               South Dakota                               $0
Kansas                                                     $0               Tennessee                                  $0
Kentucky                                                   $0               Texas                                      $0
Louisiana                                                  $0               Utah                                       $0
Maine                                                      $0               Vermont                                    $0
Maryland                                                   $0               Virginia                                   $0
Massachusetts                                              $0               Virgin Islands                             $0
Michigan                                                   $0               Washington                                 $0
Minnesota                                                  $0               West Virginia                              $0
Mississippi                                                $0               Wisconsin                                  $0
Missouri                                                   $0               Wyoming                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                30
        PERFORMANCE MEASURE 17C: Actual Savings To Beneficiaries Attributable to the Projects*
                                               Total for 2013                                              Total for 2013
Alabama                                                    $0               Montana                                  $468
Alaska                                                     $0               Nebraska                                   $0
Arizona                                                    $0               Nevada                                     $0
Arkansas                                                  $60               New Hampshire                              $0
California                                             $6,784               New Jersey                                 $0
Colorado                                               $1,188               New Mexico                                 $0
Connecticut                                                $0               New York                                   $0
Delaware                                               $2,899               North Carolina                            $61
District of Columbia                                       $0               North Dakota                               $0
Florida                                                    $0               Ohio                                       $0
Georgia                                                    $0               Oklahoma                                   $0
Guam                                                 $18,748                Oregon                                     $0
Hawaii                                                     $0               Pennsylvania                               $0
Idaho                                                    $230               Puerto Rico                                $0
Illinois                                                   $0               Rhode Island                             $400
Indiana                                                    $0               South Carolina                             $0
Iowa                                                      $40               South Dakota                               $0
Kansas                                                     $0               Tennessee                                  $0
Kentucky                                                   $0               Texas                                      $0
Louisiana                                                  $0               Utah                                   $1,557
Maine                                                      $0               Vermont                                    $0
Maryland                                                $314                Virginia                                   $0
Massachusetts                                           $208                Virgin Islands                             $0
Michigan                                                   $0               Washington                                 $0
Minnesota                                                  $0               West Virginia                              $0
Mississippi                                                $0               Wisconsin                              $8,192
Missouri                                                   $0               Wyoming                                    $0


Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                31
                   PERFORMANCE MEASURE 17D: Other Savings Attributable to the Projects
                                               Total for 2013                                              Total for 2013
Alabama                                                    $0               Montana                                    $0
Alaska                                                     $0               Nebraska                                   $0
Arizona                                                    $0               Nevada                                     $0
Arkansas                                                 $304               New Hampshire                              $0
California                                                 $0               New Jersey                                 $0
Colorado                                                   $0               New Mexico                                 $0
Connecticut                                                $0               New York                                   $0
Delaware                                                   $0               North Carolina                             $0
District of Columbia                                       $0               North Dakota                               $0
Florida                                                    $0               Ohio                                       $0
Georgia                                                    $0               Oklahoma                                   $0
Guam                                                       $0               Oregon                                     $0
Hawaii                                                     $0               Pennsylvania                               $0
Idaho                                                      $0               Puerto Rico                                $0
Illinois                                                 $264               Rhode Island                               $0
Indiana                                                    $0               South Carolina                             $0
Iowa                                                       $0               South Dakota                               $0
Kansas                                                     $0               Tennessee                                  $0
Kentucky                                                   $0               Texas                                      $0
Louisiana                                                  $0               Utah                                       $0
Maine                                                      $0               Vermont                                    $0
Maryland                                                   $0               Virginia                                   $0
Massachusetts                                              $0               Virgin Islands                             $0
Michigan                                                   $0               Washington                                 $0
Minnesota                                                  $0               West Virginia                              $0
Mississippi                                                $0               Wisconsin                                  $0
Missouri                                                   $0               Wyoming                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                32
APPENDIX D 


                                                   Results for 2013, by Project
The following tables provide a project-by-project listing of the results for each performance measure for each of the 54 Senior
Medicare Patrol projects operating in 2013.




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                33
              Alabama – Department of Senior Services, Montgomery
              In operation since: July 2006
                                                                                                               Total for 2013
                                                      PERFORMANCE MEASURES
              1             Total number of active volunteers                                                             70
              2             Total number of volunteer training hours                                                     295
              3             Total number of volunteer work hours                                                         239
              4             Number of media airings                                                                      127
              5             Number of community outreach education events conducted                                      201
              6             Estimated number of people reached by community outreach education events                 26,514
              7             Number of group education sessions for beneficiaries                                         465
              8             Number of beneficiaries who attended group education sessions                             20,109
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           2,902
              10            Total number of simple inquiries received                                                    424
              11            Total number of simple inquiries resolved                                                    424
              12            Number of inquiries involving complex issues received                                         16
              13A           Number of inquiries involving complex issues referred for further action                       3
              13B           Total dollar amount referred for further action                                               $0
              14            Number of complex issues resolved                                                             13
              15            Number of complex issues pending further action                                               22
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
              17A           Expected Medicare recoveries attributable to the projects                                     $0
              17B           Expected Medicaid recoveries attributable to the projects                                     $0
              17C           Actual savings to beneficiaries attributable to the projects                                  $0
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                        34
              Alaska – Health and Social Services, Medicare Information Office, Anchorage
              In operation since: July 1999
                                                                                                               Total for 2013
                                                      PERFORMANCE MEASURES
              1             Total number of active volunteers                                                             13
              2             Total number of volunteer training hours                                                     207
              3             Total number of volunteer work hours                                                        439
              4             Number of media airings                                                                      15
              5             Number of community outreach education events conducted                                       16
              6             Estimated number of people reached by community outreach education events                    461
              7             Number of group education sessions for beneficiaries                                          24
              8             Number of beneficiaries who attended group education sessions                                942
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary               6
              10            Total number of simple inquiries received                                                     20
              11            Total number of simple inquiries resolved                                                     20
              12            Number of inquiries involving complex issues received                                         11
              13A           Number of inquiries involving complex issues referred for further action                       6
              13B           Total dollar amount referred for further action                                               $0
              14            Number of complex issues resolved                                                             10
              15            Number of complex issues pending further action                                                2
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
              17A           Expected Medicare recoveries attributable to the projects                                     $0
              17B           Expected Medicaid recoveries attributable to the projects                                     $0
              17C           Actual savings to beneficiaries attributable to the projects                                  $0
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                        35
              Arizona – Arizona Division of Aging and Adult Services, Phoenix
              In operation since: July 1999
                                                                                                               Total for 2013
                                                      PERFORMANCE MEASURES
              1             Total number of active volunteers                                                            188
              2             Total number of volunteer training hours                                                   2,222
              3             Total number of volunteer work hours                                                       3,993
              4             Number of media airings                                                                       636
              5             Number of community outreach education events conducted                                      100
              6             Estimated number of people reached by community outreach education events                 21,284
              7             Number of group education sessions for beneficiaries                                         465
              8             Number of beneficiaries who attended group education sessions                             13,922
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             886
              10            Total number of simple inquiries received                                                    505
              11            Total number of simple inquiries resolved                                                    505
              12            Number of inquiries involving complex issues received                                          5
              13A           Number of inquiries involving complex issues referred for further action                       2
              13B           Total dollar amount referred for further action                                               $0
              14            Number of complex issues resolved                                                              2
              15            Number of complex issues pending further action                                               28
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
              17A           Expected Medicare recoveries attributable to the projects                                     $0
              17B           Expected Medicaid recoveries attributable to the projects                                     $0
              17C           Actual savings to beneficiaries attributable to the projects                                  $0
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                        36
              Arkansas – Arkansas Department of Human Services, Division of Aging and Adult Services, Little
              Rock
             In operation since: July 1999
                                                                                                                   Total for 2013
                                                         PERFORMANCE MEASURES
             1                  Total number of active volunteers                                                             70
             2                  Total number of volunteer training hours                                                     223
             3                  Total number of volunteer work hours                                                         949
             4                  Number of media airings                                                                    2,182
             5                  Number of community outreach education events conducted                                       41
             6                  Estimated number of people reached by community outreach education events                  3,057
             7                  Number of group education sessions for beneficiaries                                          86
             8                  Number of beneficiaries who attended group education sessions                              2,267
             9                  Number of one-on-one counseling sessions held with or on behalf of a beneficiary             227
             10                 Total number of simple inquiries received                                                    386
             11                 Total number of simple inquiries resolved                                                    386
             12                 Number of inquiries involving complex issues received                                         33
             13A                Number of inquiries involving complex issues referred for further action                      19
             13B                Total dollar amount referred for further action                                          $52,537
             14                 Number of complex issues resolved                                                             28
             15                 Number of complex issues pending further action                                               35
             16                 Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                     $54
             17A                Expected Medicare recoveries attributable to the projects                                 $3,180
             17B                Expected Medicaid recoveries attributable to the projects                                     $0
             17C                Actual savings to beneficiaries attributable to the projects                                 $60
             17D                Other savings attributable to the projects (e.g., Supplemental Insurance)                   $304
             17A –17D           Total savings attributable to the projects                                                $3,544




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                           37
              California – California Health Advocates, Santa Ana
              In operation since: July 1999
                                                                                                               Total for 2013
                                                      PERFORMANCE MEASURES
              1             Total number of active volunteers                                                            694
              2             Total number of volunteer training hours                                                   2,985
              3             Total number of volunteer work hours                                                      21,287
              4             Number of media airings                                                                      538
              5             Number of community outreach education events conducted                                      465
              6             Estimated number of people reached by community outreach education events                 74,982
              7             Number of group education sessions for beneficiaries                                       1,737
              8             Number of beneficiaries who attended group education sessions                             63,289
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary          19,391
              10            Total number of simple inquiries received                                                    498
              11            Total number of simple inquiries resolved                                                    498
              12            Number of inquiries involving complex issues received                                        301
              13A           Number of inquiries involving complex issues referred for further action                     173
              13B           Total dollar amount referred for further action                                          $55,432
              14            Number of complex issues resolved                                                            432
              15            Number of complex issues pending further action                                              220
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                 $49,903
              17A           Expected Medicare recoveries attributable to the projects                             $8,992,214
              17B           Expected Medicaid recoveries attributable to the projects                                     $0
              17C           Actual savings to beneficiaries attributable to the projects                              $6,784
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                            $8,998,998




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                        38
              Colorado – Colorado Department of Regulatory Agencies, Division of Insurance, Denver
              In operation since: July 1997
                                                                                                               Total for 2013
                                                      PERFORMANCE MEASURES
              1             Total number of active volunteers                                                             24
              2             Total number of volunteer training hours                                                       0
              3             Total number of volunteer work hours                                                         262
              4             Number of media airings                                                                       78
              5             Number of community outreach education events conducted                                     121
              6             Estimated number of people reached by community outreach education events                 11,006
              7             Number of group education sessions for beneficiaries                                        318
              8             Number of beneficiaries who attended group education sessions                             11,047
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              50
              10            Total number of simple inquiries received                                                    197
              11            Total number of simple inquiries resolved                                                    197
              12            Number of inquiries involving complex issues received                                         49
              13A           Number of inquiries involving complex issues referred for further action                      20
              13B           Total dollar amount referred for further action                                         $182,222
              14            Number of complex issues resolved                                                             63
              15            Number of complex issues pending further action                                               13
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                 $26,831
              17A           Expected Medicare recoveries attributable to the projects                                   $284
              17B           Expected Medicaid recoveries attributable to the projects                                     $0
              17C           Actual savings to beneficiaries attributable to the projects                              $1,188
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                                $1,472




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                        39
              Connecticut – Connecticut Department of Social Services, Aging Services Division, Hartford
             In operation since: July 1999
                                                                                                              Total for 2013
                                                      PERFORMANCE MEASURES
             1             Total number of active volunteers                                                           120
             2             Total number of volunteer training hours                                                     706
             3             Total number of volunteer work hours                                                         434
             4             Number of media airings                                                                      188
             5             Number of community outreach education events conducted                                       75
             6             Estimated number of people reached by community outreach education events                  5,602
             7             Number of group education sessions for beneficiaries                                        110
             8             Number of beneficiaries who attended group education sessions                              2,581
             9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              10
             10            Total number of simple inquiries received                                                    360
             11            Total number of simple inquiries resolved                                                    359
             12            Number of inquiries involving complex issues received                                         30
             13A           Number of inquiries involving complex issues referred for further action                       9
             13B           Total dollar amount referred for further action                                           $1,405
             14            Number of complex issues resolved                                                             23
             15            Number of complex issues pending further action                                               27
             16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
             17A           Expected Medicare recoveries attributable to the projects                                     $0
             17B           Expected Medicaid recoveries attributable to the projects                                     $0
             17C           Actual savings to beneficiaries attributable to the projects                                  $0
             17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
             17A –17D      Total savings attributable to the projects                                                    $0



Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                   40
              Delaware – Delaware Partners of Senior Medicare Patrol, New Castle
              In operation since: July 1999
                                                                                                               Total for 2013
                                                      PERFORMANCE MEASURES
              1             Total number of active volunteers                                                             29
              2             Total number of volunteer training hours                                                     257
              3             Total number of volunteer work hours                                                         719
              4             Number of media airings                                                                       29
              5             Number of community outreach education events conducted                                      129
              6             Estimated number of people reached by community outreach education events                 16,597
              7             Number of group education sessions for beneficiaries                                          65
              8             Number of beneficiaries who attended group education sessions                              2,119
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             142
              10            Total number of simple inquiries received                                                    704
              11            Total number of simple inquiries resolved                                                    703
              12            Number of inquiries involving complex issues received                                         35
              13A           Number of inquiries involving complex issues referred for further action                      14
              13B           Total dollar amount referred for further action                                          $21,410
              14            Number of complex issues resolved                                                             30
              15            Number of complex issues pending further action                                               59
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                    $298
              17A           Expected Medicare recoveries attributable to the projects                                     $0
              17B           Expected Medicaid recoveries attributable to the projects                                     $0
              17C           Actual savings to beneficiaries attributable to the projects                              $2,899
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                                $2,899




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                        41
              District of Columbia – AARP Legal Counsel for the Elderly, Washington, DC
              In operation since: July 1999
                                                                                                               Total for 2013
                                                      PERFORMANCE MEASURES
              1             Total number of active volunteers                                                             57
              2             Total number of volunteer training hours                                                     473
              3             Total number of volunteer work hours                                                       1,439
              4             Number of media airings                                                                    2,613
              5             Number of community outreach education events conducted                                        69
              6             Estimated number of people reached by community outreach education events                  6,361
              7             Number of group education sessions for beneficiaries                                         145
              8             Number of beneficiaries who attended group education sessions                              2,710
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              53
              10            Total number of simple inquiries received                                                    229
              11            Total number of simple inquiries resolved                                                    229
              12            Number of inquiries involving complex issues received                                         10
              13A           Number of inquiries involving complex issues referred for further action                       4
              13B           Total dollar amount referred for further action                                           $4,197
              14            Number of complex issues resolved                                                              4
              15            Number of complex issues pending further action                                               15
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
              17A           Expected Medicare recoveries attributable to the projects                                     $0
              17B           Expected Medicaid recoveries attributable to the projects                                     $0
              17C           Actual savings to beneficiaries attributable to the projects                                  $0
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                        42
              Florida – Area Agency on Aging of Pasco-Pinellas, Inc., St. Petersburg
              In operation since: July 1999
                                                                                                               Total for 2013
                                                      PERFORMANCE MEASURES
              1             Total number of active volunteers                                                            122
              2             Total number of volunteer training hours                                                     777
              3             Total number of volunteer work hours                                                       2,154
              4             Number of media airings                                                                       463
              5             Number of community outreach education events conducted                                      338
              6             Estimated number of people reached by community outreach education events                 43,880
              7             Number of group education sessions for beneficiaries                                         315
              8             Number of beneficiaries who attended group education sessions                             14,494
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              39
              10            Total number of simple inquiries received                                                    264
              11            Total number of simple inquiries resolved                                                    264
              12            Number of inquiries involving complex issues received                                         28
              13A           Number of inquiries involving complex issues referred for further action                      28
              13B           Total dollar amount referred for further action                                          $26,964
              14            Number of complex issues resolved                                                              4
              15            Number of complex issues pending further action                                              254
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
              17A           Expected Medicare recoveries attributable to the projects                                     $0
              17B           Expected Medicaid recoveries attributable to the projects                                     $0
              17C           Actual savings to beneficiaries attributable to the projects                                  $0
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                        43
              Georgia – GeorgiaCares Senior Medicare Patrol, Atlanta
              In operation since: July 1999
                                                                                                               Total for 2013
                                                      PERFORMANCE MEASURES
              1             Total number of active volunteers                                                            310
              2             Total number of volunteer training hours                                                     776
              3             Total number of volunteer work hours                                                       6,453
              4             Number of media airings                                                                    2,201
              5             Number of community outreach education events conducted                                    1,085
              6             Estimated number of people reached by community outreach education events                 56,308
              7             Number of group education sessions for beneficiaries                                       1,434
              8             Number of beneficiaries who attended group education sessions                             47,981
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           5,859
              10            Total number of simple inquiries received                                                  3,612
              11            Total number of simple inquiries resolved                                                  3,491
              12            Number of inquiries involving complex issues received                                         25
              13A           Number of inquiries involving complex issues referred for further action                      24
              13B           Total dollar amount referred for further action                                           $1,388
              14            Number of complex issues resolved                                                              8
              15            Number of complex issues pending further action                                               47
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
              17A           Expected Medicare recoveries attributable to the projects                                   $633
              17B           Expected Medicaid recoveries attributable to the projects                                     $0
              17C           Actual savings to beneficiaries attributable to the projects                                  $0
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                                  $633




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                        44
               Guam – Division of Senior Citizens, Department of Public Health & Social Services, Mangilao
              In operation since: July 2005
                                                                                                               Total for 2013
                                                      PERFORMANCE MEASURES
              1             Total number of active volunteers                                                             10
              2             Total number of volunteer training hours                                                      40
              3             Total number of volunteer work hours                                                        879
              4             Number of media airings                                                                     592
              5             Number of community outreach education events conducted                                       19
              6             Estimated number of people reached by community outreach education events                  1,669
              7             Number of group education sessions for beneficiaries                                        158
              8             Number of beneficiaries who attended group education sessions                              3,211
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           1,500
              10            Total number of simple inquiries received                                                    708
              11            Total number of simple inquiries resolved                                                    708
              12            Number of inquiries involving complex issues received                                          1
              13A           Number of inquiries involving complex issues referred for further action                        0
              13B           Total dollar amount referred for further action                                           $2,796
              14            Number of complex issues resolved                                                              1
              15            Number of complex issues pending further action                                                3
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
              17A           Expected Medicare recoveries attributable to the projects                                     $0
              17B           Expected Medicaid recoveries attributable to the projects                                     $0
              17C           Actual savings to beneficiaries attributable to the projects                             $18,748
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                               $18,748




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                        45
               Hawaii – State of Hawaii Executive Office on Aging, Honolulu
               In operation since: July 1997
                                                                                                                Total for 2013
                                                      PERFORMANCE MEASURES
               1             Total number of active volunteers                                                             78
               2             Total number of volunteer training hours                                                   2,039
               3             Total number of volunteer work hours                                                       1,070
               4             Number of media airings                                                                    4,219
               5             Number of community outreach education events conducted                                        79
               6             Estimated number of people reached by community outreach education events                  8,635
               7             Number of group education sessions for beneficiaries                                          51
               8             Number of beneficiaries who attended group education sessions                              1,582
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              99
               10            Total number of simple inquiries received                                                    431
               11            Total number of simple inquiries resolved                                                    431
               12            Number of inquiries involving complex issues received                                         19
               13A           Number of inquiries involving complex issues referred for further action                       7
               13B           Total dollar amount referred for further action                                           $7,214
               14            Number of complex issues resolved                                                              9
               15            Number of complex issues pending further action                                               14
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                    $230
               17A           Expected Medicare recoveries attributable to the projects                                     $0
               17B           Expected Medicaid recoveries attributable to the projects                                     $0
               17C           Actual savings to beneficiaries attributable to the projects                                  $0
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
               17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                         46
              Idaho – Idaho Commission on Aging, Boise
              In operation since: July 1999
                                                                                                               Total for 2013
                                                      PERFORMANCE MEASURES
              1             Total number of active volunteers                                                             96
              2             Total number of volunteer training hours                                                     979
              3             Total number of volunteer work hours                                                       1,874
              4             Number of media airings                                                                      638
              5             Number of community outreach education events conducted                                       70
              6             Estimated number of people reached by community outreach education events                  5,976
              7             Number of group education sessions for beneficiaries                                         224
              8             Number of beneficiaries who attended group education sessions                              6,130
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           2,293
              10            Total number of simple inquiries received                                                    226
              11            Total number of simple inquiries resolved                                                    226
              12            Number of inquiries involving complex issues received                                          8
              13A           Number of inquiries involving complex issues referred for further action                       7
              13B           Total dollar amount referred for further action                                           $9,471
              14            Number of complex issues resolved                                                              9
              15            Number of complex issues pending further action                                                4
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
              17A           Expected Medicare recoveries attributable to the projects                                 $3,202
              17B           Expected Medicaid recoveries attributable to the projects                                     $0
              17C           Actual savings to beneficiaries attributable to the projects                                $230
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                                $3,432




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                        47
              Illinois – AgeOptions, Oak Park
              In operation since: July 2006
                                                                                                               Total for 2013
                                                      PERFORMANCE MEASURES
              1             Total number of active volunteers                                                             51
              2             Total number of volunteer training hours                                                     219
              3             Total number of volunteer work hours                                                        773
              4             Number of media airings                                                                     179
              5             Number of community outreach education events conducted                                     176
              6             Estimated number of people reached by community outreach education events                 16,127
              7             Number of group education sessions for beneficiaries                                        354
              8             Number of beneficiaries who attended group education sessions                              9,568
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           7,923
              10            Total number of simple inquiries received                                                  9,382
              11            Total number of simple inquiries resolved                                                  9,382
              12            Number of inquiries involving complex issues received                                         43
              13A           Number of inquiries involving complex issues referred for further action                      27
              13B           Total dollar amount referred for further action                                          $10,010
              14            Number of complex issues resolved                                                             36
              15            Number of complex issues pending further action                                             110
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                     $0
              17A           Expected Medicare recoveries attributable to the projects                                 $2,315
              17B           Expected Medicaid recoveries attributable to the projects                                     $0
              17C           Actual savings to beneficiaries attributable to the projects                                  $0
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                   $264
              17A –17D      Total savings attributable to the projects                                                $2,579




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                        48
              Indiana – Indiana Association of Area Agencies on Aging, Education Institute, Indianapolis
             In operation since: July 1999
                                                                                                              Total for 2013
                                                      PERFORMANCE MEASURES
             1             Total number of active volunteers                                                             86
             2             Total number of volunteer training hours                                                       99
             3             Total number of volunteer work hours                                                         980
             4             Number of media airings                                                                    3,494
             5             Number of community outreach education events conducted                                      236
             6             Estimated number of people reached by community outreach education events                 49,304
             7             Number of group education sessions for beneficiaries                                         311
             8             Number of beneficiaries who attended group education sessions                              9,030
             9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             881
             10            Total number of simple inquiries received                                                    162
             11            Total number of simple inquiries resolved                                                    162
             12            Number of inquiries involving complex issues received                                         33
             13A           Number of inquiries involving complex issues referred for further action                     10
             13B           Total dollar amount referred for further action                                           $3,267
             14            Number of complex issues resolved                                                             19
             15            Number of complex issues pending further action                                               87
             16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
             17A           Expected Medicare recoveries attributable to the projects                                     $0
             17B           Expected Medicaid recoveries attributable to the projects                                     $0
             17C           Actual savings to beneficiaries attributable to the projects                                  $0
             17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
             17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                      49
            Iowa – Hawkeye Valley Area Agency on Aging, Waterloo
            In operation since: July 1997
                                                                                                             Total for 2013
                                                     PERFORMANCE MEASURES
            1             Total number of active volunteers                                                             45
            2             Total number of volunteer training hours                                                     525
            3             Total number of volunteer work hours                                                         818
            4             Number of media airings                                                                      408
            5             Number of community outreach education events conducted                                       45
            6             Estimated number of people reached by community outreach education events                  6,945
            7             Number of group education sessions for beneficiaries                                         761
            8             Number of beneficiaries who attended group education sessions                             19,337
            9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             393
            10            Total number of simple inquiries received                                                    390
            11            Total number of simple inquiries resolved                                                    390
            12            Number of inquiries involving complex issues received                                         12
            13A           Number of inquiries involving complex issues referred for further action                      16
            13B           Total dollar amount referred for further action                                           $2,143
            14            Number of complex issues resolved                                                             23
            15            Number of complex issues pending further action                                               32
            16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                    $339
            17A           Expected Medicare recoveries attributable to the projects                                   $768
            17B           Expected Medicaid recoveries attributable to the projects                                     $0
            17C           Actual savings to beneficiaries attributable to the projects                                 $40
            17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
            17A –17D      Total savings attributable to the projects                                                  $808




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                 50
             Kansas – Department on Aging, Topeka
             In operation since: July 1997
                                                                                                              Total for 2013
                                                     PERFORMANCE MEASURES
             1             Total number of active volunteers                                                             42
             2             Total number of volunteer training hours                                                     152
             3             Total number of volunteer work hours                                                          47
             4             Number of media airings                                                                    1,067
             5             Number of community outreach education events conducted                                      138
             6             Estimated number of people reached by community outreach education events                 12,810
             7             Number of group education sessions for beneficiaries                                         116
             8             Number of beneficiaries who attended group education sessions                              4,743
             9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              12
             10            Total number of simple inquiries received                                                     22
             11            Total number of simple inquiries resolved                                                     22
             12            Number of inquiries involving complex issues received                                          1
             13A           Number of inquiries involving complex issues referred for further action                       0
             13B           Total dollar amount referred for further action                                               $0
             14            Number of complex issues resolved                                                              1
             15            Number of complex issues pending further action                                               66
             16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
             17A           Expected Medicare recoveries attributable to the projects                                     $0
             17B           Expected Medicaid recoveries attributable to the projects                                     $0
             17C           Actual savings to beneficiaries attributable to the projects                                  $0
             17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
             17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                   51
            Kentucky – Louisville Metro Department of Public Health and Wellness, Louisville
            In operation since: July 2001
                                                                                                             Total for 2013
                                                     PERFORMANCE MEASURES
            1             Total number of active volunteers                                                           160
            2             Total number of volunteer training hours                                                     558
            3             Total number of volunteer work hours                                                       2,342
            4             Number of media airings                                                                    2,004
            5             Number of community outreach education events conducted                                     154
            6             Estimated number of people reached by community outreach education events                 12,210
            7             Number of group education sessions for beneficiaries                                        264
            8             Number of beneficiaries who attended group education sessions                              7,387
            9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           1,622
            10            Total number of simple inquiries received                                                  1,456
            11            Total number of simple inquiries resolved                                                  1,456
            12            Number of inquiries involving complex issues received                                         13
            13A           Number of inquiries involving complex issues referred for further action                       5
            13B           Total dollar amount referred for further action                                          $13,532
            14            Number of complex issues resolved                                                             16
            15            Number of complex issues pending further action                                                4
            16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                  $1,947
            17A           Expected Medicare recoveries attributable to the projects                                 $1,643
            17B           Expected Medicaid recoveries attributable to the projects                                     $0
            17C           Actual savings to beneficiaries attributable to the projects                                  $0
            17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
            17A –17D      Total savings attributable to the projects                                                $1,643




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)                52
           Louisiana – EQ Health Solutions, Baton Rouge
          In operation since: June 2009
                                                                                                           Total for 2013
                                                    PERFORMANCE MEASURES
          1             Total number of active volunteers                                                             40
          2             Total number of volunteer training hours                                                     262
          3             Total number of volunteer work hours                                                       1,139
          4             Number of media airings                                                                    4,383
          5             Number of community outreach education events conducted                                      133
          6             Estimated number of people reached by community outreach education events                 16,464
          7             Number of group education sessions for beneficiaries                                         130
          8             Number of beneficiaries who attended group education sessions                              3,813
          9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             282
          10            Total number of simple inquiries received                                                    159
          11            Total number of simple inquiries resolved                                                    159
          12            Number of inquiries involving complex issues received                                         89
          13A           Number of inquiries involving complex issues referred for further action                      22
          13B           Total dollar amount referred for further action                                          $35,306
          14            Number of complex issues resolved                                                            102
          15            Number of complex issues pending further action                                               23
          16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                    $731
          17A           Expected Medicare recoveries attributable to the projects                                   $440
          17B           Expected Medicaid recoveries attributable to the projects                                     $0
          17C           Actual savings to beneficiaries attributable to the projects                                  $0
          17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
          17A –17D      Total savings attributable to the projects                                                  $440




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)             53
          Maine – Legal Services for the Elderly, Augusta
         In operation since: July 1999
                                                                                                           Total for 2013
                                                   PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              85
         2             Total number of volunteer training hours                                                      665
         3             Total number of volunteer work hours                                                        5,604
         4             Number of media airings                                                                       489
         5             Number of community outreach education events conducted                                       136
         6             Estimated number of people reached by community outreach education events                   4,246
         7             Number of group education sessions for beneficiaries                                          108
         8             Number of beneficiaries who attended group education sessions                               1,835
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           11,099
         10            Total number of simple inquiries received                                                     822
         11            Total number of simple inquiries resolved                                                     822
         12            Number of inquiries involving complex issues received                                          33
         13A           Number of inquiries involving complex issues referred for further action                        4
         13B           Total dollar amount referred for further action                                            $1,610
         14            Number of complex issues resolved                                                              38
         15            Number of complex issues pending further action                                                14
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                  $29,165
         17A           Expected Medicare recoveries attributable to the projects                                      $0
         17B           Expected Medicaid recoveries attributable to the projects                                      $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)            54
          Maryland – Maryland Department of Aging, Baltimore
         In operation since: July 1997
                                                                                                           Total for 2013
                                                  PERFORMANCE MEASURES
         1             Total number of active volunteers                                                             124
         2             Total number of volunteer training hours                                                    1,472
         3             Total number of volunteer work hours                                                        5,806
         4             Number of media airings                                                                     2,049
         5             Number of community outreach education events conducted                                       459
         6             Estimated number of people reached by community outreach education events                  24,682
         7             Number of group education sessions for beneficiaries                                          384
         8             Number of beneficiaries who attended group education sessions                               9,602
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           17,536
         10            Total number of simple inquiries received                                                   8,483
         11            Total number of simple inquiries resolved                                                   8,453
         12            Number of inquiries involving complex issues received                                          24
         13A           Number of inquiries involving complex issues referred for further action                         2
         13B           Total dollar amount referred for further action                                              $765
         14            Number of complex issues resolved                                                              19
         15            Number of complex issues pending further action                                                28
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare recoveries attributable to the projects                                      $0
         17B           Expected Medicaid recoveries attributable to the projects                                      $0
         17C           Actual savings to beneficiaries attributable to the projects                                 $314
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                   $314




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)            55
          Massachusetts – Elder Services of Merrimack Valley, Inc., Lawrence
         In operation since: July 1999
                                                                                                           Total for 2013
                                                  PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              75
         2             Total number of volunteer training hours                                                      661
         3             Total number of volunteer work hours                                                        2,531
         4             Number of media airings                                                                       637
         5             Number of community outreach education events conducted                                       102
         6             Estimated number of people reached by community outreach education events                  11,125
         7             Number of group education sessions for beneficiaries                                          106
         8             Number of beneficiaries who attended group education sessions                               3,039
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary            3,336
         10            Total number of simple inquiries received                                                   1,420
         11            Total number of simple inquiries resolved                                                   1,420
         12            Number of inquiries involving complex issues received                                          12
         13A           Number of inquiries involving complex issues referred for further action                        4
         13B           Total dollar amount referred for further action                                           $19,124
         14            Number of complex issues resolved                                                                 4
         15            Number of complex issues pending further action                                                39
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                   $6,268
         17A           Expected Medicare recoveries attributable to the projects                                    $332
         17B           Expected Medicaid recoveries attributable to the projects                                      $0
         17C           Actual savings to beneficiaries attributable to the projects                                 $208
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                   $540




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)            56
          Michigan – Michigan Medicare/Medicaid Assistance Program, Inc., Lansing
          In operation since: July 1999
                                                                                                           Total for 2013
                                                  PERFORMANCE MEASURES
          1             Total number of active volunteers                                                            313
          2             Total number of volunteer training hours                                                   5,877
          3             Total number of volunteer work hours                                                       3,535
          4             Number of media airings                                                                      281
          5             Number of community outreach education events conducted                                      221
          6             Estimated number of people reached by community outreach education events                 42,244
          7             Number of group education sessions for beneficiaries                                         698
          8             Number of beneficiaries who attended group education sessions                             36,090
          9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           2,318
          10            Total number of simple inquiries received                                                    189
          11            Total number of simple inquiries resolved                                                    189
          12            Number of inquiries involving complex issues received                                         42
          13A           Number of inquiries involving complex issues referred for further action                      15
          13B           Total dollar amount referred for further action                                          $12,603
          14            Number of complex issues resolved                                                             46
          15            Number of complex issues pending further action                                               13
          16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
          17A           Expected Medicare recoveries attributable to the projects                                     $0
          17B           Expected Medicaid recoveries attributable to the projects                                     $0
          17C           Actual savings to beneficiaries attributable to the projects                                  $0
          17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
          17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)            57
          Minnesota – Minnesota Board on Aging, Dept. of Human Services, Aging and Adult Services Div., Saint Paul
       In operation since: July 1997
                                                                                                           Total for 2013
                                                   PERFORMANCE MEASURES
      1                Total number of active volunteers                                                               108
      2                Total number of volunteer training hours                                                       1,350
      3                Total number of volunteer work hours                                                            555
      4                Number of media airings                                                                         151
      5                Number of community outreach education events conducted                                        75
      6                Estimated number of people reached by community outreach education events                  44,067
      7                Number of group education sessions for beneficiaries                                            430
      8                Number of beneficiaries who attended group education sessions                                  9,395
      9                Number of one-on-one counseling sessions held with or on behalf of a beneficiary                  64
      10               Total number of simple inquiries received                                                      2,931
      11               Total number of simple inquiries resolved                                                      2,931
      12               Number of inquiries involving complex issues received                                            17
      13A              Number of inquiries involving complex issues referred for further action                       10
      13B              Total dollar amount referred for further action                                            $4,691
      14               Number of complex issues resolved                                                                 7
      15               Number of complex issues pending further action                                                  56
      16               Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                         $0
      17A              Expected Medicare recoveries attributable to the projects                                        $0
      17B              Expected Medicaid recoveries attributable to the projects                                        $0
      17C              Actual savings to beneficiaries attributable to the projects                                     $0
      17D              Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
      17A –17D         Total savings attributable to the projects                                                       $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)         58
     Mississippi – Mississippi Department of Human Services, Division of Aging and Adult Services, Jackson
    In operation since: July 2000
                                                                                                             Total for 2013
                                                  PERFORMANCE MEASURES
    1                Total number of active volunteers                                                                  14
    2                Total number of volunteer training hours                                                           70
    3                Total number of volunteer work hours                                                              103
    4                Number of media airings                                                                             7
    5                Number of community outreach education events conducted                                           193
    6                Estimated number of people reached by community outreach education events                        9,709
    7                Number of group education sessions for beneficiaries                                               43
    8                Number of beneficiaries who attended group education sessions                                    1,283
    9                Number of one-on-one counseling sessions held with or on behalf of a beneficiary                 4,074
    10               Total number of simple inquiries received                                                        2,094
    11               Total number of simple inquiries resolved                                                        2,094
    12               Number of inquiries involving complex issues received                                               6
    13A              Number of inquiries involving complex issues referred for further action                            3
    13B              Total dollar amount referred for further action                                                   $14
    14               Number of complex issues resolved                                                                   5
    15               Number of complex issues pending further action                                                    33
    16               Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                           $0
    17A              Expected Medicare recoveries attributable to the projects                                          $0
    17B              Expected Medicaid recoveries attributable to the projects                                          $0
    17C              Actual savings to beneficiaries attributable to the projects                                       $0
    17D              Other savings attributable to the projects (e.g., Supplemental Insurance)                          $0
    17A –17D         Total savings attributable to the projects                                                         $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)         59
   Missouri – Care Connection for Aging Services, Warrensburg
   In operation since: July 1997
                                                                                                           Total for 2013
                                                     PERFORMANCE MEASURES
   1                  Total number of active volunteers                                                               28
   2                  Total number of volunteer training hours                                                       242
   3                 Total number of volunteer work hours                                                             97
   4                  Number of media airings                                                                         58
   5                 Number of community outreach education events conducted                                         144
   6                  Estimated number of people reached by community outreach education events                   10,594
   7                  Number of group education sessions for beneficiaries                                           153
   8                  Number of beneficiaries who attended group education sessions                                3,490
   9                  Number of one-on-one counseling sessions held with or on behalf of a beneficiary                 0
   10                 Total number of simple inquiries received                                                    8,545
   11                 Total number of simple inquiries resolved                                                    8,544
   12                 Number of inquiries involving complex issues received                                            0
   13A                Number of inquiries involving complex issues referred for further action                         0
   13B                Total dollar amount referred for further action                                                 $0
   14                 Number of complex issues resolved                                                                0
   15                 Number of complex issues pending further action                                                 66
   16                 Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
   17A                Expected Medicare recoveries attributable to the projects                                       $0
   17B                Expected Medicaid recoveries attributable to the projects                                       $0
   17C                Actual savings to beneficiaries attributable to the projects                                    $0
   17D                Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
   17A –17D           Total savings attributable to the projects                                                      $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)     60
          Montana – Missoula Aging Services, Missoula
          In operation since: July 1999
                                                                                                           Total for 2013
                                                  PERFORMANCE MEASURES
          1             Total number of active volunteers                                                             43
          2             Total number of volunteer training hours                                                     141
          3             Total number of volunteer work hours                                                        631
          4             Number of media airings                                                                    4,723
          5             Number of community outreach education events conducted                                       14
          6             Estimated number of people reached by community outreach education events                  1,217
          7             Number of group education sessions for beneficiaries                                        474
          8             Number of beneficiaries who attended group education sessions                             13,707
          9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary            687
          10            Total number of simple inquiries received                                                   339
          11            Total number of simple inquiries resolved                                                    313
          12            Number of inquiries involving complex issues received                                         32
          13A           Number of inquiries involving complex issues referred for further action                         5
          13B           Total dollar amount referred for further action                                          $24,076
          14            Number of complex issues resolved                                                             32
          15            Number of complex issues pending further action                                               13
          16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
          17A           Expected Medicare recoveries attributable to the projects                                     $0
          17B           Expected Medicaid recoveries attributable to the projects                                     $0
          17C           Actual savings to beneficiaries attributable to the projects                                $468
          17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
          17A –17D      Total savings attributable to the projects                                                  $468




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)            61
          Nebraska – Nebraska Department of Health and Human Services, Lincoln
         In operation since: July 2000
                                                                                                           Total for 2013
                                                  PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              79
         2             Total number of volunteer training hours                                                      339
         3             Total number of volunteer work hours                                                        1,307
         4             Number of media airings                                                                    10,358
         5             Number of community outreach education events conducted                                        92
         6             Estimated number of people reached by community outreach education events                   7,871
         7             Number of group education sessions for beneficiaries                                          234
         8             Number of beneficiaries who attended group education sessions                               5,996
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary            3,881
         10            Total number of simple inquiries received                                                     457
         11            Total number of simple inquiries resolved                                                     457
         12            Number of inquiries involving complex issues received                                          20
         13A           Number of inquiries involving complex issues referred for further action                         7
         13B           Total dollar amount referred for further action                                           $34,636
         14            Number of complex issues resolved                                                              26
         15            Number of complex issues pending further action                                                   8
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare recoveries attributable to the projects                                     $77
         17B           Expected Medicaid recoveries attributable to the projects                                      $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                    $77




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)            62
           Nevada – Office of the Nevada Attorney General, Las Vegas
          In operation since: July 1999
                                                                                                           Total for 2013
                                                   PERFORMANCE MEASURES
          1             Total number of active volunteers                                                             86
          2             Total number of volunteer training hours                                                   1,641
          3             Total number of volunteer work hours                                                       1,527
          4             Number of media airings                                                                    1,776
          5             Number of community outreach education events conducted                                      131
          6             Estimated number of people reached by community outreach education events                 10,668
          7             Number of group education sessions for beneficiaries                                         171
          8             Number of beneficiaries who attended group education sessions                              3,740
          9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             853
          10            Total number of simple inquiries received                                                    720
          11            Total number of simple inquiries resolved                                                    720
          12            Number of inquiries involving complex issues received                                         13
          13A           Number of inquiries involving complex issues referred for further action                     13
          13B           Total dollar amount referred for further action                                             $221
          14            Number of complex issues resolved                                                              6
          15            Number of complex issues pending further action                                               24
          16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
          17A           Expected Medicare recoveries attributable to the projects                                     $0
          17B           Expected Medicaid recoveries attributable to the projects                                     $0
          17C           Actual savings to beneficiaries attributable to the projects                                  $0
          17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
          17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)             63
         New Hampshire – Health and Human Services – Bureau of Elderly and Adult Services, Concord
         In operation since: July 1997
                                                                                                           Total for 2013
                                                 PERFORMANCE MEASURES
         1             Total number of active volunteers                                                                9
         2             Total number of volunteer training hours                                                         48
         3             Total number of volunteer work hours                                                         189
         4             Number of media airings                                                                       13
         5             Number of community outreach education events conducted                                          87
         6             Estimated number of people reached by community outreach education events                   5,912
         7             Number of group education sessions for beneficiaries                                         100
         8             Number of beneficiaries who attended group education sessions                               1,905
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary            2,165
         10            Total number of simple inquiries received                                                     435
         11            Total number of simple inquiries resolved                                                     435
         12            Number of inquiries involving complex issues received                                            10
         13A           Number of inquiries involving complex issues referred for further action                        7
         13B           Total dollar amount referred for further action                                            $2,419
         14            Number of complex issues resolved                                                                 9
         15            Number of complex issues pending further action                                                  10
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                         $0
         17A           Expected Medicare recoveries attributable to the projects                                        $0
         17B           Expected Medicaid recoveries attributable to the projects                                        $0
         17C           Actual savings to beneficiaries attributable to the projects                                     $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
         17A –17D      Total savings attributable to the projects                                                       $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           64
         New Jersey – Jewish Family & Vocational Services of Middlesex County, Inc., Milltown
         In operation since: July 2001
                                                                                                           Total for 2013
                                                 PERFORMANCE MEASURES
         1             Total number of active volunteers                                                                43
         2             Total number of volunteer training hours                                                      702
         3             Total number of volunteer work hours                                                         773
         4             Number of media airings                                                                       84
         5             Number of community outreach education events conducted                                          55
         6             Estimated number of people reached by community outreach education events                   5,698
         7             Number of group education sessions for beneficiaries                                         271
         8             Number of beneficiaries who attended group education sessions                               9,212
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             179
         10            Total number of simple inquiries received                                                   1,529
         11            Total number of simple inquiries resolved                                                   1,527
         12            Number of inquiries involving complex issues received                                            71
         13A           Number of inquiries involving complex issues referred for further action                         11
         13B           Total dollar amount referred for further action                                          $153,931
         14            Number of complex issues resolved                                                                59
         15            Number of complex issues pending further action                                                  12
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                     $867
         17A           Expected Medicare recoveries attributable to the projects                                 $17,612
         17B           Expected Medicaid recoveries attributable to the projects                                        $0
         17C           Actual savings to beneficiaries attributable to the projects                                     $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
         17A –17D      Total savings attributable to the projects                                                $17,612




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           65
         New Mexico – New Mexico Aging and Long-Term Services Department, Albuquerque
        In operation since: July 1999
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                 75
        2             Total number of volunteer training hours                                                       716
        3             Total number of volunteer work hours                                                         3,660
        4             Number of media airings                                                                     19,335
        5             Number of community outreach education events conducted                                       505
        6             Estimated number of people reached by community outreach education events                   25,335
        7             Number of group education sessions for beneficiaries                                          115
        8             Number of beneficiaries who attended group education sessions                                3,325
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             6,055
        10            Total number of simple inquiries received                                                        2
        11            Total number of simple inquiries resolved                                                          2
        12            Number of inquiries involving complex issues received                                             42
        13A           Number of inquiries involving complex issues referred for further action                         2
        13B           Total dollar amount referred for further action                                            $24,277
        14            Number of complex issues resolved                                                                 20
        15            Number of complex issues pending further action                                                   18
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                   $19,012
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                        $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           66
        New York – New York State Office of the Aging, Albany
        In operation since: July 1997
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                410
        2             Total number of volunteer training hours                                                     1,896
        3             Total number of volunteer work hours                                                         2,222
        4             Number of media airings                                                                      1,998
        5             Number of community outreach education events conducted                                         49
        6             Estimated number of people reached by community outreach education events                    3,342
        7             Number of group education sessions for beneficiaries                                            98
        8             Number of beneficiaries who attended group education sessions                               12,100
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             2,200
        10            Total number of simple inquiries received                                                    2,698
        11            Total number of simple inquiries resolved                                                    2,664
        12            Number of inquiries involving complex issues received                                             0
        13A           Number of inquiries involving complex issues referred for further action                           0
        13B           Total dollar amount referred for further action                                                   $0
        14            Number of complex issues resolved                                                                  0
        15            Number of complex issues pending further action                                                  120
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                        $0
        17B           Expected Medicaid recoveries attributable to the projects                                        $0
        17C           Actual savings to beneficiaries attributable to the projects                                     $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                        $0
        17A –17D      Total savings attributable to the projects                                                       $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)          67
         North Carolina – Department of Insurance, Raleigh
        In operation since: July 2003
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                             515
        2             Total number of volunteer training hours                                                     6,874
        3             Total number of volunteer work hours                                                         2,557
        4             Number of media airings                                                                     28,433
        5             Number of community outreach education events conducted                                       442
        6             Estimated number of people reached by community outreach education events                  142,925
        7             Number of group education sessions for beneficiaries                                          752
        8             Number of beneficiaries who attended group education sessions                               25,962
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary            10,893
        10            Total number of simple inquiries received                                                    6,344
        11            Total number of simple inquiries resolved                                                    6,344
        12            Number of inquiries involving complex issues received                                             11
        13A           Number of inquiries involving complex issues referred for further action                         2
        13B           Total dollar amount referred for further action                                             $4,447
        14            Number of complex issues resolved                                                                 38
        15            Number of complex issues pending further action                                                   21
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                   $61
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                     $61




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           68
         North Dakota – North Dakota Center for Persons with Disabilities, Minot State University, Minot
        In operation since: July 2003
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                 34
        2             Total number of volunteer training hours                                                          67
        3             Total number of volunteer work hours                                                           365
        4             Number of media airings                                                                        130
        5             Number of community outreach education events conducted                                           84
        6             Estimated number of people reached by community outreach education events                    5,364
        7             Number of group education sessions for beneficiaries                                           124
        8             Number of beneficiaries who attended group education sessions                                1,944
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary               143
        10            Total number of simple inquiries received                                                         95
        11            Total number of simple inquiries resolved                                                         95
        12            Number of inquiries involving complex issues received                                             1
        13A           Number of inquiries involving complex issues referred for further action                         1
        13B           Total dollar amount referred for further action                                               $230
        14            Number of complex issues resolved                                                                  0
        15            Number of complex issues pending further action                                                    1
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                        $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           69
         Ohio – Pro Seniors, Inc., Cincinnati
        In operation since: July 2002
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                 58
        2             Total number of volunteer training hours                                                       262
        3             Total number of volunteer work hours                                                          851
        4             Number of media airings                                                                        84
        5             Number of community outreach education events conducted                                       153
        6             Estimated number of people reached by community outreach education events                   16,108
        7             Number of group education sessions for beneficiaries                                          145
        8             Number of beneficiaries who attended group education sessions                                2,570
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary                 9
        10            Total number of simple inquiries received                                                      112
        11            Total number of simple inquiries resolved                                                      112
        12            Number of inquiries involving complex issues received                                             22
        13A           Number of inquiries involving complex issues referred for further action                         8
        13B           Total dollar amount referred for further action                                             $6,033
        14            Number of complex issues resolved                                                                 23
        15            Number of complex issues pending further action                                                   15
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                  $52,873
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                 $52,873




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           70
         Oklahoma – State of Oklahoma Insurance Department, Oklahoma City
        In operation since: July 1999
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                 3
        2             Total number of volunteer training hours                                                          50
        3             Total number of volunteer work hours                                                           141
        4             Number of media airings                                                                      2,509
        5             Number of community outreach education events conducted                                       144
        6             Estimated number of people reached by community outreach education events                   11,110
        7             Number of group education sessions for beneficiaries                                          184
        8             Number of beneficiaries who attended group education sessions                                5,995
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              348
        10            Total number of simple inquiries received                                                       0
        11            Total number of simple inquiries resolved                                                          0
        12            Number of inquiries involving complex issues received                                             4
        13A           Number of inquiries involving complex issues referred for further action                           0
        13B           Total dollar amount referred for further action                                                $96
        14            Number of complex issues resolved                                                                  6
        15            Number of complex issues pending further action                                                    7
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                        $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           71
         Oregon – Department of Human Services, Seniors and People with Disabilities, Salem
        In operation since: July 1999
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                             217
        2             Total number of volunteer training hours                                                       656
        3             Total number of volunteer work hours                                                         3,043
        4             Number of media airings                                                                      5,666
        5             Number of community outreach education events conducted                                           90
        6             Estimated number of people reached by community outreach education events                    6,724
        7             Number of group education sessions for beneficiaries                                          176
        8             Number of beneficiaries who attended group education sessions                                3,993
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             2,780
        10            Total number of simple inquiries received                                                    2,317
        11            Total number of simple inquiries resolved                                                    2,317
        12            Number of inquiries involving complex issues received                                             32
        13A           Number of inquiries involving complex issues referred for further action                          12
        13B           Total dollar amount referred for further action                                            $31,497
        14            Number of complex issues resolved                                                                 25
        15            Number of complex issues pending further action                                                   14
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                        $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           72
         Pennsylvania – Center for Advocacy for the Rights and Interests of the Elderly, Philadelphia
        In operation since: July 1997
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                 56
        2             Total number of volunteer training hours                                                       146
        3             Total number of volunteer work hours                                                         1,241
        4             Number of media airings                                                                         22
        5             Number of community outreach education events conducted                                           78
        6             Estimated number of people reached by community outreach education events                    8,512
        7             Number of group education sessions for beneficiaries                                          282
        8             Number of beneficiaries who attended group education sessions                                5,890
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              287
        10            Total number of simple inquiries received                                                    1,072
        11            Total number of simple inquiries resolved                                                    1,071
        12            Number of inquiries involving complex issues received                                             34
        13A           Number of inquiries involving complex issues referred for further action                           9
        13B           Total dollar amount referred for further action                                               $461
        14            Number of complex issues resolved                                                                 36
        15            Number of complex issues pending further action                                                   37
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                     $141
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                    $141




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           73
         Puerto Rico – Office of the Ombudsman for the Elderly, Santurce
        In operation since: July 1999
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                               23
        2             Total number of volunteer training hours                                                     1,328
        3             Total number of volunteer work hours                                                         5,639
        4             Number of media airings                                                                            0
        5             Number of community outreach education events conducted                                      1,392
        6             Estimated number of people reached by community outreach education events                   42,884
        7             Number of group education sessions for beneficiaries                                              0
        8             Number of beneficiaries who attended group education sessions                                     0
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary               800
        10            Total number of simple inquiries received                                                          0
        11            Total number of simple inquiries resolved                                                          0
        12            Number of inquiries involving complex issues received                                             0
        13A           Number of inquiries involving complex issues referred for further action                           0
        13B           Total dollar amount referred for further action                                                   $0
        14            Number of complex issues resolved                                                                  0
        15            Number of complex issues pending further action                                                    2
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                        $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           74
          Rhode Island – Department of Elderly Affairs, Cranston
           In operation since: July 2006
                                                                                                            Total for 2013
                                                   PERFORMANCE MEASURES
           1             Total number of active volunteers                                                               47
           2             Total number of volunteer training hours                                                       269
           3             Total number of volunteer work hours                                                       1,127
           4             Number of media airings                                                                        196
           5             Number of community outreach education events conducted                                        203
           6             Estimated number of people reached by community outreach education events                  6,061
           7             Number of group education sessions for beneficiaries                                           154
           8             Number of beneficiaries who attended group education sessions                              4,868
           9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           3,572
           10            Total number of simple inquiries received                                                 10,850
           11            Total number of simple inquiries resolved                                                 10,850
           12            Number of inquiries involving complex issues received                                          19
           13A           Number of inquiries involving complex issues referred for further action                     11
           13B           Total dollar amount referred for further action                                           $6,840
           14            Number of complex issues resolved                                                               14
           15            Number of complex issues pending further action                                               15
           16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                  $2,491
           17A           Expected Medicare recoveries attributable to the projects                                      $0
           17B           Expected Medicaid recoveries attributable to the projects                                      $0
           17C           Actual savings to beneficiaries attributable to the projects                                $400
           17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
           17A –17D      Total savings attributable to the projects                                                  $400




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           75
          South Carolina – Lt. Governor’s Office on Aging, Columbia
         In operation since: July 2000
                                                                                                           Total for 2013
                                                 PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              13
         2             Total number of volunteer training hours                                                       19
         3             Total number of volunteer work hours                                                          354
         4             Number of media airings                                                                    36,207
         5             Number of community outreach education events conducted                                       209
         6             Estimated number of people reached by community outreach education events                  19,925
         7             Number of group education sessions for beneficiaries                                          178
         8             Number of beneficiaries who attended group education sessions                               5,313
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary            7,682
         10            Total number of simple inquiries received                                                   8,057
         11            Total number of simple inquiries resolved                                                   8,045
         12            Number of inquiries involving complex issues received                                          10
         13A           Number of inquiries involving complex issues referred for further action                        5
         13B           Total dollar amount referred for further action                                            $2,060
         14            Number of complex issues resolved                                                                 0
         15            Number of complex issues pending further action                                                80
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare recoveries attributable to the projects                                      $0
         17B           Expected Medicaid recoveries attributable to the projects                                      $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)            76
         South Dakota – East River Legal Services, Sioux Falls
        In operation since: July 2000
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                 27
        2             Total number of volunteer training hours                                                          52
        3             Total number of volunteer work hours                                                          282
        4             Number of media airings                                                                         4
        5             Number of community outreach education events conducted                                          2
        6             Estimated number of people reached by community outreach education events                      125
        7             Number of group education sessions for beneficiaries                                              18
        8             Number of beneficiaries who attended group education sessions                                  560
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              354
        10            Total number of simple inquiries received                                                      34
        11            Total number of simple inquiries resolved                                                         34
        12            Number of inquiries involving complex issues received                                             6
        13A           Number of inquiries involving complex issues referred for further action                           0
        13B           Total dollar amount referred for further action                                               $768
        14            Number of complex issues resolved                                                                  7
        15            Number of complex issues pending further action                                                    0
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                     $768
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                    $768




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           77
         Tennessee – Upper Cumberland Development District, Cookeville
        In operation since: July 2001
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                              107
        2             Total number of volunteer training hours                                                     1,299
        3             Total number of volunteer work hours                                                         3,170
        4             Number of media airings                                                                      5,238
        5             Number of community outreach education events conducted                                        278
        6             Estimated number of people reached by community outreach education events                   52,558
        7             Number of group education sessions for beneficiaries                                           347
        8             Number of beneficiaries who attended group education sessions                                8,119
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             4,067
        10            Total number of simple inquiries received                                                         67
        11            Total number of simple inquiries resolved                                                         67
        12            Number of inquiries involving complex issues received                                             58
        13A           Number of inquiries involving complex issues referred for further action                          27
        13B           Total dollar amount referred for further action                                            $17,869
        14            Number of complex issues resolved                                                                 28
        15            Number of complex issues pending further action                                                   85
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                    $2,112
        17A           Expected Medicare recoveries attributable to the projects                                   $8,448
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                  $8,448




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           78
         Texas – Better Business Bureau Education, Houston
        In operation since: July 2002
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                 76
        2             Total number of volunteer training hours                                                       307
        3             Total number of volunteer work hours                                                          518
        4             Number of media airings                                                                      1,230
        5             Number of community outreach education events conducted                                       161
        6             Estimated number of people reached by community outreach education events                   36,694
        7             Number of group education sessions for beneficiaries                                          284
        8             Number of beneficiaries who attended group education sessions                                9,056
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              501
        10            Total number of simple inquiries received                                                     350
        11            Total number of simple inquiries resolved                                                      345
        12            Number of inquiries involving complex issues received                                             51
        13A           Number of inquiries involving complex issues referred for further action                          39
        13B           Total dollar amount referred for further action                                            $30,836
        14            Number of complex issues resolved                                                                 26
        15            Number of complex issues pending further action                                               149
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
        17A           Expected Medicare recoveries attributable to the projects                                     $261
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                    $261




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           79
         Utah – Utah Division of Aging and Adult Services, Salt Lake City
        In operation since: June 2009
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                              149
        2             Total number of volunteer training hours                                                       952
        3             Total number of volunteer work hours                                                         4,569
        4             Number of media airings                                                                        139
        5             Number of community outreach education events conducted                                        242
        6             Estimated number of people reached by community outreach education events                   18,802
        7             Number of group education sessions for beneficiaries                                           342
        8             Number of beneficiaries who attended group education sessions                               10,585
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             8,984
        10            Total number of simple inquiries received                                                    3,564
        11            Total number of simple inquiries resolved                                                    3,564
        12            Number of inquiries involving complex issues received                                             44
        13A           Number of inquiries involving complex issues referred for further action                        42
        13B           Total dollar amount referred for further action                                           $112,217
        14            Number of complex issues resolved                                                                 44
        15            Number of complex issues pending further action                                                    5
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                    $2,867
        17A           Expected Medicare recoveries attributable to the projects                                  $15,075
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                $1,557
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
        17A –17D      Total savings attributable to the projects                                                 $16,632




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           80
         Vermont – Community of Vermont Elders, Berlin
        In operation since: July 2003
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                 49
        2             Total number of volunteer training hours                                                       536
        3             Total number of volunteer work hours                                                         1,577
        4             Number of media airings                                                                        110
        5             Number of community outreach education events conducted                                           57
        6             Estimated number of people reached by community outreach education events                    1,113
        7             Number of group education sessions for beneficiaries                                          129
        8             Number of beneficiaries who attended group education sessions                                2,533
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary                   0
        10            Total number of simple inquiries received                                                         31
        11            Total number of simple inquiries resolved                                                         31
        12            Number of inquiries involving complex issues received                                              7
        13A           Number of inquiries involving complex issues referred for further action                           5
        13B           Total dollar amount referred for further action                                             $1,429
        14            Number of complex issues resolved                                                                  4
        15            Number of complex issues pending further action                                                    5
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                        $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           81
         Virginia – Virginia Association of Area Agencies on Aging, Richmond
         In operation since: July 1999
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
         1            Total number of active volunteers                                                               35
         2            Total number of volunteer training hours                                                       187
         3            Total number of volunteer work hours                                                           295
         4            Number of media airings                                                                     19,979
         5            Number of community outreach education events conducted                                        207
         6            Estimated number of people reached by community outreach education events                   16,057
         7            Number of group education sessions for beneficiaries                                           238
         8            Number of beneficiaries who attended group education sessions                                6,084
         9            Number of one-on-one counseling sessions held with or on behalf of a beneficiary               422
         10           Total number of simple inquiries received                                                      746
         11           Total number of simple inquiries resolved                                                      746
         12           Number of inquiries involving complex issues received                                           39
         13A          Number of inquiries involving complex issues referred for further action                       47
         13B          Total dollar amount referred for further action                                               $801
         14           Number of complex issues resolved                                                                 30
         15           Number of complex issues pending further action                                                 57
         16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
         17A          Expected Medicare recoveries attributable to the projects                                         $0
         17B          Expected Medicaid recoveries attributable to the projects                                         $0
         17C          Actual savings to beneficiaries attributable to the projects                                      $0
         17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
         17A –17D     Total savings attributable to the projects                                                        $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           82
         Virgin Islands – Department of Human Services, Senior Citizens Affairs, St. Croix
        In operation since: July 2005
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                 27
        2             Total number of volunteer training hours                                                       230
        3             Total number of volunteer work hours                                                          251
        4             Number of media airings                                                                        75
        5             Number of community outreach education events conducted                                           23
        6             Estimated number of people reached by community outreach education events                    1,803
        7             Number of group education sessions for beneficiaries                                              22
        8             Number of beneficiaries who attended group education sessions                                  334
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary                  68
        10            Total number of simple inquiries received                                                         14
        11            Total number of simple inquiries resolved                                                         14
        12            Number of inquiries involving complex issues received                                             0
        13A           Number of inquiries involving complex issues referred for further action                          0
        13B           Total dollar amount referred for further action                                                   $0
        14            Number of complex issues resolved                                                                  0
        15            Number of complex issues pending further action                                                    3
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                        $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           83
         Washington – Office of the Insurance Commissioner, Tumwater
        In operation since: July 1999
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                              16
        2             Total number of volunteer training hours                                                       118
        3             Total number of volunteer work hours                                                           946
        4             Number of media airings                                                                        665
        5             Number of community outreach education events conducted                                        711
        6             Estimated number of people reached by community outreach education events                   45,059
        7             Number of group education sessions for beneficiaries                                           430
        8             Number of beneficiaries who attended group education sessions                               22,242
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             4,453
        10            Total number of simple inquiries received                                                    8,247
        11            Total number of simple inquiries resolved                                                    8,245
        12            Number of inquiries involving complex issues received                                          209
        13A           Number of inquiries involving complex issues referred for further action                           2
        13B           Total dollar amount referred for further action                                             $8,000
        14            Number of complex issues resolved                                                              117
        15            Number of complex issues pending further action                                                415
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                        $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           84
         West Virginia – AARP Foundation, Charleston
        In operation since: July 2003
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                 58
        2             Total number of volunteer training hours                                                            9
        3             Total number of volunteer work hours                                                           671
        4             Number of media airings                                                                        360
        5             Number of community outreach education events conducted                                         31
        6             Estimated number of people reached by community outreach education events                    7,520
        7             Number of group education sessions for beneficiaries                                            30
        8             Number of beneficiaries who attended group education sessions                               20,815
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             1,370
        10            Total number of simple inquiries received                                                   20,225
        11            Total number of simple inquiries resolved                                                   20,225
        12            Number of inquiries involving complex issues received                                             18
        13A           Number of inquiries involving complex issues referred for further action                            0
        13B           Total dollar amount referred for further action                                               $967
        14            Number of complex issues resolved                                                                  0
        15            Number of complex issues pending further action                                                159
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                        $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           85
         Wisconsin – Coalition of Wisconsin Aging Groups, Madison
        In operation since: July 1997
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                 89
        2             Total number of volunteer training hours                                                       315
        3             Total number of volunteer work hours                                                          565
        4             Number of media airings                                                                       547
        5             Number of community outreach education events conducted                                           61
        6             Estimated number of people reached by community outreach education events                    4,541
        7             Number of group education sessions for beneficiaries                                          148
        8             Number of beneficiaries who attended group education sessions                                2,825
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              146
        10            Total number of simple inquiries received                                                    1,202
        11            Total number of simple inquiries resolved                                                    1,200
        12            Number of inquiries involving complex issues received                                             11
        13A           Number of inquiries involving complex issues referred for further action                         6
        13B           Total dollar amount referred for further action                                             $4,650
        14            Number of complex issues resolved                                                                 12
        15            Number of complex issues pending further action                                                   15
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                          $0
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                $8,192
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                  $8,192




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           86
         Wyoming – Senior Citizens, Inc., Riverton
        In operation since: July 2000
                                                                                                           Total for 2013
                                                PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                 10
        2             Total number of volunteer training hours                                                          19
        3             Total number of volunteer work hours                                                          248
        4             Number of media airings                                                                     11,536
        5             Number of community outreach education events conducted                                           24
        6             Estimated number of people reached by community outreach education events                    1,252
        7             Number of group education sessions for beneficiaries                                              23
        8             Number of beneficiaries who attended group education sessions                                  736
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             2,339
        10            Total number of simple inquiries received                                                      499
        11            Total number of simple inquiries resolved                                                      499
        12            Number of inquiries involving complex issues received                                             14
        13A           Number of inquiries involving complex issues referred for further action                           3
        13B           Total dollar amount referred for further action                                            $39,547
        14            Number of complex issues resolved                                                                 12
        15            Number of complex issues pending further action                                                    2
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $168
        17A           Expected Medicare recoveries attributable to the projects                                         $0
        17B           Expected Medicaid recoveries attributable to the projects                                         $0
        17C           Actual savings to beneficiaries attributable to the projects                                      $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                         $0
        17A –17D      Total savings attributable to the projects                                                        $0




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report (OEI-02-14-00140)           87
                APPENDIX E
                Definitions of Performance Measures

                The following list includes the definitions of the performance measures for
                2013.




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report
(OEI-02-14-00140)                                                                        88
                                              Definitions


ACTIVE VOLUNTEER 	                      An individual who donates his or her time to assist with
                                        implementing the Senior Medicare Patrol (SMP) project.
                                        Volunteers are trained to perform project work, which is
                                        conducted during their personal time. They are not paid by
                                        anyone during the time they perform this work.

VOLUNTEER TRAINING 	                    A formal gathering (e.g., in person, by teleconference, or
                                        by Web conference) sponsored for the purpose of teaching
                                        or retraining SMP project staff and/or volunteers who in
                                        turn will educate individuals to identify and report health
                                        care fraud, waste, and abuse. Training reportable to the
                                        Office of Inspector General does not include informal
                                        training mechanisms such as email updates or newsletters.

MEDIA AIRING 	                          Any individual airing or publishing of media (e.g., print,
                                        radio, television, or electronic) to educate about
                                        Medicare/Medicaid fraud and the services of the
                                        SMP project.

COMMUNITY OUTREACH/ 	                   An outreach and/or education activity conducted by
EDUCATION EVENT	                        SMP project staff or volunteers that is not a group
                                        education session, one-on-one session, or media airing.
                                        The purpose of such an event is to educate the public about
                                        health care fraud prevention, detection, and reporting, and
                                        the availability of project services in their area.

GROUP EDUCATION 	                       A formal presentation led by SMP project staff or
SESSION 	                               volunteers to educate beneficiaries, family members,
                                        caregivers, and others on detecting fraud, waste, and abuse
                                        in the health care system and services offered by the
                                        project.




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report
(OEI-02-14-00140)                                                                          89
ONE-ON-ONE COUNSELING 	                 A meeting between an SMP project representative and
SESSION 	                               an individual beneficiary and/or his or her family or
                                        caregiver for the purpose of discussing or gathering
                                        information about potential health care fraud, error, or
                                        abuse. One-on-one counseling sessions may include
                                        beneficiary counseling, information gathering, or
                                        information sharing.

SIMPLE INQUIRY 	                        A brief contact initiated by a consumer and/or beneficiary
                                        that is resolved with minimal time and research or review.
                                        Simple inquiries typically do not require individual
                                        demographic or private personal information, such as a
                                        Medicare number or information about a medical condition.

COMPLEX ISSUE 	                         An inquiry that generally requires the SMP project staff or
                                        volunteer to obtain beneficiary personal identifying
                                        information and detailed information related to the issue,
                                        complaint, or allegation in order to conduct further
                                        investigation or referral.

COMPLEX ISSUE                           A complex issue referred to a Medicare contractor,
REFERRED FOR FURTHER                    an investigative agency, or other appropriate organization.
ACTION

COMPLEX ISSUE 	                         A complex issue successfully resolved by an SMP project,
RESOLVED	                               a Medicare contractor, an investigative agency, or another
                                        appropriate organization.

COMPLEX ISSUE PENDING	                  A complex issue—irrespective of when it was received
FURTHER ACTION 	                        —that is still being investigated by either the SMP project
                                        or the entity to which the case was referred.

COST AVOIDANCE	                         Health care expenditures for which the Government, a
                                        beneficiary, or other entity (e.g., secondary health insurer
                                        or a pharmacy) was relieved of responsibility for payment
                                        as a result of the SMP project.




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report
(OEI-02-14-00140)                                                                          90
EXPECTED MEDICARE	                      This amount represents actual and expected recoveries
RECOVERIES	                             from criminal actions, settlements, civil judgments, or
                                        overpayments that resulted from the referral. This applies
                                        to the amount of money that was ordered or agreed upon to
                                        be returned to Medicare, and may not reflect actual
                                        collections. Recoveries may also involve cases that include
                                        participation by a Medicare contractor or a law
                                        enforcement agency.

EXPECTED MEDICAID	                      This amount represents actual and expected recoveries
RECOVERIES 	                            from criminal actions, settlements, civil judgments, or
                                        overpayments that resulted from the referral. This applies
                                        to the amount of money that was ordered or agreed upon to
                                        be returned to Medicaid, and may not reflect actual
                                        collections. Recoveries may also involve cases that include
                                        participation by a Medicaid Fraud Control Unit or a law
                                        enforcement agency.

SAVINGS TO THE 	                        Money saved by or recouped to an individual as a result of
BENEFICIARY 	                           the SMP project (e.g., copayments, deductibles, or any
                                        other out-of-pocket expenses).

OTHER SAVINGS	                          Money saved or recouped to an entity other than Medicare,
                                        Medicaid, or a beneficiary (e.g., secondary health insurer)
                                        as a result of the SMP project.




Performance Data for the Senior Medicare Patrol Projects: June 2014 Performance Report
(OEI-02-14-00140)                                                                        91
